     July 7, 2005




Information Technology
Management
Report on Defense Property
Accountability System Controls
Placed in Operation and Test of
Operating Effectiveness for the
Period September 1, 2004 through
April 30, 2005
(D-2005-092)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGkNIA 222024704




                                                                                   July 7,2005

MEMORANDUM FOR THE OFFICE OF THE UNDER SECRETARY OF DEFENSE,
                 ACQUJSITTON, TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTR0LLER)ICHEF
                 FINANCIAL OFFICER
                 DEPUTY C H E F FINANCIAL OFFICER
                 DEPUTY COMPTROLLER (PROGRAMBUDGET)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE WORhfATION SYSTEMS AGENCY
               COMMANDING OFFICER, NAVAL SUPPLY INFORMATION
                 SYSTEMS ACTlVlTY

SUBJECT:      Report on the Defense Property Accountabfili ty System Controls Placed in
              Operation and Test of Operating Effectiveness for the Period September 1, 2004
              through April 30,2005 (Report No. D-2005-092)

        We are providing this report for your information and use. No written response no this
report is required. Therefore, we are publishing this report in final fom.

       We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Addie M. Beirna at (703) 428-1 054 (DSN 328-1054) or YoIanda C. Watts at
(703) 428-1 071 (DSN 328-1071). The audit team members are listed inside the back cover.

                                    By direction of the Deputy Inspector General for Auditing:



                                 /'&,--PaulJ. ~ r a n e t t CPA
                                                            ~,
                                  Assistant Inspector General
                                  Defense Financial Auditing
                                              Service
Table of Contents_________________________________
Foreward……………………………………………………………………i

Section I
   Independent Service Auditor’s Report………………………………………………..1

Section II
   Description of the Defense Property Accountability System Operations and Controls
   Provided by the Defense Finance and Accounting Service, the Defense Information
   Systems Agency, and the Naval Supply Information Systems
   Activity…………………………………………………………………………...…..7

Section III
   Control Objectives, Control Activities, and Tests of Operating
   Effectiveness………………………………………………………………………...29

Section IV
   Supplemental Information Provided by the Defense Information Systems
   Agency......................................................................................................................103

Acronyms and Abbreviations…………………………………………………...107

Report Distribution………..……………………………………............................109
                                      FOREWORD

This report is intended solely for use by management of the Defense Finance and
Accounting Service (DFAS), Defense Information Systems Agency (DISA), and Naval
Supply Information Systems Activity (NAVSISA), the Defense Property Accountability
System (DPAS) user organizations, and the independent auditors of such user
organizations. Department of Defense personnel who manage and use the DPAS will
also find this report of interest as it contains information about DPAS general and
application controls.

The Department of Defense Office of Inspector General (DoD OIG) is implementing a
long-range strategy to conduct audits of DoD financial statements. The Chief Financial
Officer’s Act of 1990 (P.L. 101-576), as amended, mandates that agencies prepare and
conduct audits of financial statements. The reliability of information in DPAS directly
impacts DoD’s ability to produce reliable, and ultimately auditable, financial statements;
which is key to achieving the goals of the Chief Financial Officer’s Act.

DPAS provides financial reporting capability for capital assets (assets with a value
greater than $100,000), and asset accountability for more than 10.6 million property
assets (assets with a value less than $100,000) valued at approximately $48.3 billion as
of February 2005. DPAS provides standard general ledger accounting in conformance
with the United States Government Standard General Ledger (USSGL) at the transaction
level and subsidiary reporting for capital assets. DPAS tracks accountability for various
types of property including personal property, real property, and heritage assets. DPAS
has security features that provide asset visibility at many levels based on users’ roles and
needs.

This audit assessed controls over DPAS accountability of assets totaling approximately
$48.3 billion. This report provides an opinion on the fairness of presentation, the
adequacy of design, and the operating effectiveness of key controls that are relevant to
audits of user organization financial statements. As a result, this audit precludes the need
for multiple audits of DPAS controls previously performed by user organizations to plan
or conduct financial statement and performance audits. This audit will also provide, in a
separate audit report, recommendations to management for correction of identified
control deficiencies. Effective internal control is critical to achieving reliable
information for all management reporting and decision making purposes.




                                              i
Section I: Independent Service Auditors’ Report




                       1
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 222024704



                                                                                     July 7, 2005

MEMORANDW FOR THE OFFICE OF THE UNDER SECRETARY OF DEFENSE,
                ACQUISITION, TECHNOLOGY, AN13 LOGISTICS
              UNDER SECRETARY OF DEFENSE (C0MPTROLLER)JCHIEF
                FINANCWL OFFICER
                DEPUTY CHIEF FINANCIAL OFFICER
                DEPUTY COMPTROLLER (PROGRGMJBUDGET)
              DWCTOR, DEFENSE FINANCE AND ACCOUNTING
                SERVICE
              DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY
              COMMANDING OFFICER, NAVAL SUPPLY INFORMATION
                SYSTEMS ACTIVITY

SUBJECT:      Report on the Defense Property AccountabiIity System Controls Placed in
              Operation and Test of Operating Effectiveness for the Period Septernbw 1, 2004
              through April 30, ZOOS

We have examined the accompanying description of the general computer and application
controls related to DPAS (Section 11) of this report. The DPAS program is overseen and
managed by the Office of the Under Secretary of Defense, Acquisition, Technology and
Logistics and used by 329 user groups throughout the Department of Defense (DoD). The
DPAS system, induding general computer and application controls, is directly supported and
maintained by DFAS, DISA, and NAVSISA. Our examination included procedures to obtain
reasonable assurance about whether (1) the accompanying description presents fairly, in all
material respects, the aspects of the controls at DFAS, DISA, and NAVSISA that may be
relevant to a DPAS user organizations' internal controls as it relates to an audit of financial
statements; ( 2 ) the controls included in the description were suitably designed to achieve the
control objectives specified in the description if those controls were complied with
satisfactorily and uses organizations applied those aspects of internal control contemplated in
the design of the controls at DFAS, DISA, and NAVSISA; and (3) such controls had been
placed in operation as of April 30,2005.

The control objectives were specified by DaD OIG and accepted by DFAS, DPSA and
NAVSISA. Our examination was performed in accordance with standards established by the
American Institute of Certified Public Accountants and the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States, and included those procedures we considered necessary in the circumstances to
obtain a reasonable basis for rendering our opinion.

DPAS was used by the Army, Navy, and Defense Agencies, including the National Security
Agency (NSA). The NSA had its own separate version of DPAS since its property infomation
was classified. In addition, the Navy used DPAS in a manner that is different than the way
DPAS is used by the A m y and Defense Agencies. The accompanying description includes
includes only those general computer and application control objectives and related control
activities related to the nonclassified and non-Navy DPAS versions of the system. DPAS
interfaced with over 28 DoD systems that either received data from or transmitted data to
DPAS. The accompanying description includes only those general computer and application
controls related to the input and output processing of these data files and does not include
general computer and application controls over the source and destination systems that send
data files to or receive data files from DPAS. Finally, the accompanying description includes
only those application controls that were centrally managed and maintained by DFAS, DISA,
and NAVSISA and does not include the application controls resident at DPAS user locations.
Therefore, our examination did not extend to the general computer and application controls
related to the classified and Navy versions of DPAS, the general computer and application
controls over the source and destination systems that interfaced with DPAS, or the application
controls resident at DPAS user locations.

Our examination was conducted for the purpose of forming an opinion on the description of
the DPAS general computer and application controls at DFAS, DISA, and NAVSISA (Section
II and the control activities described in Section III of this report). Information about business
continuity plans and procedures at DISA, as provided by that organization and included in
Section IV, is presented to provide additional information to user organizations and is not a
part of the description of controls at DFAS, DISA, and NAVSISA. The information in Section
IV has not been subjected to the procedures applied in the examination of the aforementioned
description of the controls at DFAS, DISA, and NAVSISA related to their business continuity
plans and procedures. Accordingly, we express no opinion on the description of the business
continuity plans and procedures provided by DISA.

In our opinion, the accompanying description of the general computer and application controls
at DFAS, DISA, and NAVSISA related to DPAS (Section II) presents fairly, in all material
respects, the relevant aspects of the controls at DFAS, DISA, and NAVSISA that had been
placed in operation as of April 30, 2005. Also, in our opinion, the controls, as described, were
suitably designed to provide reasonable assurance that the specified control objectives would
be achieved if the described controls were complied with satisfactorily and users applied those
aspects of internal control contemplated in the design of the controls at DFAS, DISA, and
NAVSISA.

In addition to the procedures that we considered necessary to render our opinion as expressed
in the previous paragraph, we applied tests to specified controls, listed in Section III, to obtain
evidence about their effectiveness in meeting the related control objectives described in
Section III during the period from September 1, 2004, to April 30, 2005. The specific control
objectives, controls, and the nature, timing, extent, and results of the tests are listed in Section
III. This information has been provided to DPAS user organizations and to their auditors to be
taken into consideration, along with information about the user organizations’ internal control
environments, when making assessments of control risk for such user organizations.

A number of controls in place to ensure compliance with DoD information assurance policies,
including DoDI 8500.2 and DoD Information Technology Security Certification and
Accreditation Process (DITSCAP) appear to be suitably designed, but our tests of operating



                                                 4
effectiveness indicated inconsistencies in adherence to these policies. In performing our
examination, we identified the following deficiencies relating to the operating effectiveness of
controls in operation for the period September 1, 2004, to April 30, 2005:

 • DISA recorded the system audit trails generated by DPAS. However, DISA did not
    proactively monitor DPAS system audit trails. As a result, DPAS’s controls did not
    provide reasonable assurance that the following control objectives were fully achieved
    during the period from September 1, 2004 to April 30, 2005:

       •   “Tools are available for the review of audit records and for report generation from
           audit records” (general computer control objective 34);

       •   “Policies and techniques have been implemented for using and monitoring the use
           of system utilities” (general computer control objective 72); and

       •   “Installation of system software is documented and reviewed” (general computer
           control objective 74).

 • DISA had documented standard operating procedures covering the DPAS-related
    operations at DISA Ogden. However, those standard operating procedures were outdated
    and incomplete. As a result, DPAS’s controls did not provide reasonable assurance that
    the following control objectives were fully achieved during the period from September 1,
    2004 to April 30, 2005:

       •   “Policies and techniques have been implemented for using and monitoring the use
           of system utilities” (general computer control objective 72) and

       •   “Formal procedures guide personnel in performing their duties” (general computer
           control objective 80).

 • DISA performed certain procedures to process and monitor system transaction files, as
    well as certain procedures to correct errors and problems associated with transaction file
    processing. However, those procedures were not documented. In addition, the majority
    of the transaction processing, monitoring, and error correction functions were performed
    by one individual at DISA who was the only person who had the full technical knowledge
    of DPAS to perform all of the functions. The unavailability of this person could impact
    the timeliness and quality of system transaction file processing. As a result, DPAS’s
    controls did not provide reasonable assurance that the following control objective was
    fully achieved during the period from September 1, 2004 to April 30, 2005: “Controls
    provide reasonable assurance that erroneous transactions are identified without being
    processed and without undue disruption of the processing of other valid transactions,”
    (application control objective 11).

 • DISA performed vulnerability testing to identify DPAS’s architecture vulnerabilities.
    However, DISA did not perform periodic network penetration testing. As a result,
    DPAS’s controls did not provide reasonable assurance that the following control objective
    was fully achieved during the period from September 1, 2004 to April 30, 2005:
    “Conformance testing that includes periodic, unannounced, in-depth monitoring and


                                               5
    "Conformance testing that includes periodic, unannounced, in-depth monitoring and
    provides for specific penetration testing to ensure compliance with all vulnerability
    mitigation procedures is planned, scheduled, and conducted," (general computes control
    objective 48).

In our opinion, except for the matters described in the preceding paragraphs, the controls that
were tested, as described in Section ITI, were operating with suficient effectiveness to provide
reasonable, but not absolute, assurance that the control objectives specified in Section U1 were
achieved during the period from September 1,2004 to April 30,2005. However, the scope of
our engagement did not include tests to determine whether control objectives not listed in
Section 111were achieved; accordingly, we express no opinion on the achievement of control
objectives not included in Section III.

The relative effectiveness and significance of specific controls at DFAS, DISA, and NAVSISA
and their effect on assessments of control. risk at user organizations are dependent on their
interaction with the internal control environment and other factors present at individual user
organizations. We have performed no procedures to evaluate the effectiveness of internal
controls placed in operation at individual user organizations.

The description of the controls at DFAS, DISA, and NAVSISA is as of April 30,2005, and
information about tests of their operating effectiveness covers the period from September I ,
2004 to April 30,2005. Any projection of such information to the future is subject to the risk
that, because of change, the description may no longer portray the system in existence. The
potential effectiveness of specific controls at DFAS, DISA, and NAVSlSA is subject to
inherent limitations, and accordingly, errors or fraud may occur and not be detected.
Furthemore, the projection of any conclusions, based on our findings, to future periods is
subject to the risk that (1) changes made to the system or controls, (2) changes in processing
requirements, or (3) changes required because of the passage of t h e may alter the validity of
such conclusions.

This report is intended solely for use by management of DFAS, DTSA, and NAVSISA, the
DPAS user organizations, and the independent auditors of such user organizatjons.


                                      By direction of the Deputy Inspector General for Auditing:


                                    {I"Paul
                                  ~ G T
                                       id%J.   u&,     II. flli/uy/C/
                                              ranetto, CPA
                                  Assistant Inspector General
                                  Defense Financial Auditing
                                            Service
Section II: Description of Defense Property Accountability System
 Operations and Controls Provided by the Defense Finance and
Accounting Service, the Defense Information Systems Agency, and
          the Naval Supply Information Systems Activity




                                7
II. Description of the Defense Property Accountability System
Operations and Controls Provided by the Defense Finance and
Accounting Service, Defense Information Systems Agency, and
Naval Supply Information Systems Activity
     A. Overview of DPAS

     History

     The Under Secretary of Defense (Comptroller) and the Assistant Secretary of
     Defense for Command, Control, Communication and Intelligence designated
     DPAS as a migratory system in Fiscal Year 1995 to bring DoD real and personal
     property assets under proper accountability and financial control. At that time,
     DoD real and personal property were considered high-risk areas by the audit
     community. DoD activities began migrating data to DPAS in 1995. By 2001,
     DPAS was nearly fully deployed throughout DoD. The Army, Navy, Marine
     Corps and 22 Defense Agencies adopted DPAS; the Air Force did not. DPAS is
     considered a legacy system that will be replaced by 2012 as part of Enterprise
     Resource Plan initiatives at the Army, Navy, Marine Corps, and Defense
     Logistics Agency. An acquisition strategy is currently being developed to
     determine the appropriate modernization strategy for DPAS. DPAS is
     administered by the Under Secretary of Defense (Comptroller) and the Office of
     the Under Secretary of Defense, Acquisition, Technology and Logistics.


     System Capabilities


     DPAS provides financial reporting capability for capital assets (assets with a
     value greater than $100,000), and asset accountability for more than 10.6 million
     property assets (assets with a value less than $100,000) valued at approximately
     $48.3 billion as of February 2005. DPAS provides standard general ledger
     accounting in conformance with the USSGL at the transaction level and
     subsidiary reporting for capital assets. DPAS tracks accountability for various
     types of property, including personal property, real property, and heritage assets.
     DPAS has security features that provide asset visibility at many levels based on
     users’ roles and needs.

     DPAS provides DoD users with full support for property accountability,
     management, and financial reporting. Specifically, it provides the capability to
     update item authorizations, perform asset cataloging actions, assign
     accountability, perform accountable record processing (such as receipts, turn-in,
     transfers, and inventory tracking and status), account for government furnished
     property, compute depreciation, generate general ledger transactions, update
     subsidiary and general ledger records, report financial status, maintain an

                                          9
automated document register, and report disposals. DPAS also supports various
maintenance requirements including tracking preventive maintenance schedules
and actions, generating work orders, and tracking warranty, loan and lease data.
DPAS users have the ability to choose the DPAS functionality they want to use to
meet their property accountability needs. In addition to standard reporting
capabilities, DPAS provides users with commercially developed ad hoc query and
report writing software. This toolset allows DPAS users to create and save
custom queries and reports to meet any special reporting requirements that the
standard DPAS reports do not support.


System Interfaces

DPAS’s primary interface is keyboard input using the Government off-the-Shelf
(GOTS) client/server software provided to its users. The majority of the inputs
are real-time with the updates being performed immediately. In the instance of
batch processing, users generate “Batch Requests” real-time which are then stored
in a database table for subsequent processing during the batch cycle. Validation
of the real-time input is performed by the client software whenever possible.
Should the validation require cross-validation with other table data not resident
within the window, the validation will occur within the server software prior to
processing. The GOTS software provides users update processes, ad hoc query
processes and standard reports.

DPAS has one internal interface that uses DPAS-developed software to accept
inventory data generated by Portable Data Collection Devices (PDCDs), also
referred to as scanners. Users export a file from their terminal to the PDCD that
contains information about inventories to be conducted. Upon completion of
the inventories, the results are exported from the PDCD back to the user’s
terminal. From the user’s terminal, the DPAS client software updates user
databases. Some PDCDs may be capable of communicating wirelessly. In
those instances, the PDCD is configured to communicate with DPAS client
software, which in turn processes the updates on a near real-time basis.

With the exception of the Unit Level Logistics System – Supply (ULLS-S4),
which is a PC-based self-contained application that uses a floppy diskette, or
other similar media, all external interfaces use File Transfer Protocol/Secure File
Transfer Protocol to communicate with DPAS. DPAS interfaces with 26 external
systems. All interfaces are documented with a service level agreement that
contains contact information, data file layouts, file transmission procedures, and
frequency of transmission information. With the exception of ULLS-S4, Army
Material Command Installation Supply System, and Standard Army Retail Supply
System, all interfaces are managed by the DISA DPAS operations support team.


In addition to system interfaces, there are data flows between various DPAS

                                    10
modules. To build a property record, data is initially entered using the Catalog
module with each distinct asset being catalogued with a Stock Number. The
Catalog module maintains management data pertaining to the asset with that data
flowing from the Catalog module to the Authorization and Document Register
modules. The Document Register assigns document numbers, updates status,
closes completed actions, and provides visibility for open and closed actions. The
Authorization Module feeds data to the Hand Receipt module to provide a link
between assets on-hand and the authorization to obtain, retain or turn-in an asset.
The Hand Receipt module provides the capability to process all actions that affect
asset balances. The Hand Receipt module creates accounting transactions when
gains or losses for capital assets occur and feeds data to the Accounting
Module generating asset expense and depreciation data. The Hand Receipt also
provides data to the Maintenance and Utilization module.

External interfaces are grouped by function as follows:

   •   Accounting - Accounting information, including depreciation data, are
       interfaced from the DPAS database to selected accounting management
       systems. The accounting interface is a one-way outbound interface that
       provides capital asset general ledger and accounting information to cost
       accounting systems such as Standard Industrial Fund System, Defense
       Business Management System, Financial Accounting and Management
       Information System, Washington Headquarters Services Allotment
       Accounting System, Logistics Modernization Program, and Electronic
       Business. These interfaces typically occur daily with data sent to the
       accounting system when there is accounting transaction activity. Plans are
       under way to add additional accounting interfaces with the Defense
       Working Capital Accounting System; Standard Accounting and Reporting
       System; Standard Accounting, Budget, and Reporting System; and
       Defense Corporate Database.

   •   Authorization - The authorization interface is a one-way inbound interface
       that supports Army DPAS users by providing equipment authorization
       requirements from the Logistics Army Authorization Document System.
       The Logistics Army Authorization Document System data provides users
       with current and projected equipment requirements. Users review this
       data to determine whether there is sufficient equipment on-hand to fulfill
       their mission, when to submit requisitions to cover equipment shortages,
       and when to initiate turn-in actions for excess equipment. The Logistics
       Support Activity within the Department of the Army is responsible for
       sending the file containing Logistics Army Authorization Document
       System data.

   •   Asset Visibility - Asset visibility interfaces are one-way outbound
       interfaces that provide data extracts of asset information based on the
       needs of receiving systems. DPAS has active interfaces with the Unique
       Item Tracking and Command Asset Visibility and Equipment
                                    11
    Redistribution System. Unique Item Tracking is used to report Army
    reportable assets to the Continuing Balance System Expanded and to
    report Small Arms to the Department of Defense Small Arms Serialization
    Program registry and Cryptology assets to the Controlled Cryptographic
    Item registry. The Unique Item Tracking interface typically occurs daily
    with data being sent to Logistics Support Activity when there are Army
    reportable asset transactions. The Command Asset Visibility and
    Equipment Redistribution System interface occurs once a week. Both
    interfaces are controlled by automated system scheduling software.

•   Catalog - Catalog interfaces are all one-way inbound interfaces. There are
    active catalog interfaces with Federal Logistics Data, Supply Bulletin 700-
    20, Army Master Data File, and National Defense Equipment. These
    interfaces provide DPAS users with current information concerning
    National Stock Numbers. This information is used by DPAS users to
    requisition materials and catalog assets. The interface frequencies range
    from “As Needed” (when updates occur) for the National Defense
    Equipment, to Semi-Annual for the Supply Bulletin, to monthly for
    Federal Logistics Data and the Army Master Data File. Defense Logistics
    Information Service is responsible for sending Federal Logistics Data to
    DPAS and the Logistics Support Activity is responsible for sending the
    Supply Bulletin, Army Master Data File and National Defense Equipment
    data.

•   Excess - The excess interface is a two-way interface that supports the
    redistribution of information technology (IT) assets. The interface
    exchanges asset disposal information with the Defense Reutilization and
    Marketing Automated Information System. This interface is used to
    notify managers of excess assets. The Defense Reutilization and
    Marketing Automated Information System provides DPAS with
    information about sites that accept excess assets and with information
    concerning schools that have been approved to participate in the
    Computers for Learning program.

•   Hand Receipt - The hand receipt interface is a one-way outbound interface
    that supports feeding asset information to the ULLS-S4 system. The
    interface is used to provide DPAS ULLS-S4 users (typically active Army
    or National Guard units that are stationed at an Army post, camp, or
    station) information concerning assets acquired by their activity. The data
    from DPAS is merged with the activity’s own asset data within ULLS-S4
    to provide users with a complete picture of assets for which they are
    responsible. The DPAS user executes this interface in near real-time
    when there is a need.

•   Maintenance - The maintenance interface is a one-way outbound interface
    that supports feeding asset information to external maintenance systems.
    DPAS has an active maintenance interface with the Facility Equipment

                                12
    Management System. The interface is used to provide maintenance
    systems with new equipment receipts, equipment turn-ins, and changes in
    the status of existing equipment such as serial numbers, bar codes,
    locations, and accumulated depreciation. The interface provides the
    maintenance system with approximately 40 attributes on each piece of
    equipment identified for maintenance and utilization tracking. This
    interface occurs daily when there is activity and is controlled by
    automated system scheduling software.

•   Real Property - The real property interface is a two-way interface. DPAS
    has active real property interfaces with the Integrated Facilities System
    and the Planning Resource Infrastructure Decision Evaluation System.
    The interfaces are used to accept real property information in DPAS.
    During posting, accounting transactions are generated for transmission to
    accounting systems. When capital improvements are input directly into
    DPAS, DPAS generates transactions back to the real property systems to
    advise them of the improvement. During the DPAS depreciation cycle,
    DPAS transmits Accumulated Depreciation records to real property
    systems to update the book value of each asset. This interface typically
    occurs daily when there is activity and is controlled by automated system
    scheduling software. The real property systems are responsible for
    initiating the transmission and receipt of data.

•   Receipts - The receipts interface is a two-way interface. DPAS has an
    active receipts interface with the Base Operations Support System. The
    interface is used to accept information concerning personal property assets
    posted to users’ accounts. Records that reject or are not accepted are sent
    back to the sending system to advise them that the record was not
    accepted. This interface typically occurs daily when there is activity and
    is controlled by automated system scheduling software. Receiving
    systems are responsible for initiating the transmission and receipt of data.

•   Supply - Supply interfaces are two-way interfaces that provide users with
    the ability to perform requisitioning actions using DPAS processes. For
    the Army Material Command Installation Supply System and the Standard
    Army Retail Supply System interfaces, these requisitions are transmitted
    electronically to the Supply Support Activity. The Supply Support
    Activity issues the material from local stock, or forwards the request to the
    wholesale level for issuance or to the contracting system for local
    purchase. In the case of the Defense Automatic Addressing System
    interface, requisitioning is limited to National Stock Numbers. These
    requisitions are transmitted directly to the Defense Automatic Addressing
    System, which in turn retransmits them to the correct Inventory Control
    Point for issuance. All of the supply systems send requisition status
    information back to DPAS and DPAS updates the users’ requisitions
    electronically. With the exception of the Defense Automatic Addressing
    System interface, which is controlled by automated system scheduling

                                 13
                  software, these interfaces typically occur daily and are initiated by the
                  user.

      Figure 1 below provides a graphical representation of the DPAS data flow.


 Figure 1:

                                                 DPAS Data Flow


                           Maintenance & Utilization Data        Maintenance & Utilization Data
                             Catalog Data                               Inventory Status
                              Accounting Data                                                             DPAS END
   DPAS END                                                                Accounting Data
    USER                          Authorization Data                                                       USER
                                                                             Authorization Data
                                    Asset Data

                  Property Management Data
         Inquiries and Report
                                                                                           Accounting Data

                                                      DEFENSE
   SYSTEM                                             PROPERTY                          Real Property Data

ADMINISTRATOR                                      ACCOUNTABILITY
                                                                                      Requisition Data
                                                       SYSTEM
             Requisition Status



                         Catalog Data
                                                                                   Inventory
                           Supply Requests
   EXTERNAL                                                                                                EXTERNAL
                                                                          Daisy (Redistribution)
 INTERFACES                  Authorization Data                                                          INTERFACES
                                  Excess Data                      Maintenance & Utilization Data




      System Architecture


      DPAS operates in a client-server environment. This environment
      provides the application support, operations, backup, and recovery for
      the DPAS mission. The client environment is comprised of multiple
      sites employing workstations with connectivity to the server
      environment. Client connectivity is provided by the server site based on
      authenticated users with valid internet protocol addresses. DPAS
      system servers support all DoD agency databases using the DPAS
      application for property accountability. The server environment consists
      of the application software, operating system, database, and hardware.

      The DPAS database is a relational collection of data associated with property
      accountability and equipment management. There are 329 relational databases
      supporting a worldwide geographical dispersion of multiple agencies and
                                                            14
commands. DPAS database files reside on magnetic disk. Magnetic tapes are
used for off-line backups of the databases. The storage requirement for each
customer database is based primarily on the number of items on the customer's
property book. The minimum storage requirement for the DPAS common
database is 1.3 Gigabytes. This supports up to 15,000 property book items. Each
additional 15,000 property book items increases the storage requirement by 20
Megabytes. The database permits asset authorization, cataloging, accountable
record processing, financial processing, equipment maintenance, and equipment
utilization. The DPAS Common database is comprised of several individual
customer databases and one DPAS Excess database. The physical structure of the
DPAS database is such that access to individual databases and the Excess
database by the application software is DPAS platform-transparent (the
application software is not dependent on the physical location of databases as
configured across DPAS platforms). Individual site DPAS databases are resident
on the DPAS production servers located at DISA Dayton. The minimum storage
requirement for the DPAS Excess database is also 40 Megabytes. In the event of
data loss or corruption, the entire DPAS database can be restored from daily tape
backups.

The hardware platforms for the DPAS application are Hewlett Packard (HP)
L2000, HP K570, HPI70, HPK220, and HPK400 servers. The operating system
is a HP-UX Release 11 Operating System with multi-user licensing for concurrent
users. Development software includes Micro Focus Version 4.0 COBOL with
database environment of Cincom SUPRA 2.9.X Relational Database Management
System (UNIX/Client Server version) and Micro Focus Application-to-
Application. Servers are remotely managed by system administrators in the DISA
Ogden System Management Center (SMC) located at Hill Air Force Base, Ogden,
UT.

Security against unauthorized access to the DPAS database is controlled at
several levels. End-user access is controlled by the operating system and Remote
Defense Business Management System software, as well as by DPAS application
software. Database support and maintenance operations can be done only by
those individuals designated as database administrators or system administrators.

B. Control Environment

Management Oversight

DPAS is a centrally funded and managed program. The Program Manager for
DPAS reports to the Deputy Director, Acquisition Resources and Analysis,
Property and Equipment Policy Office, which reports to the OUSD(C) and the
OUSD, AT&L. The DPAS Program Management Office is located at DFAS,
Columbus, Ohio, which provides direct operational oversight for the program and
supports all customer service requirements (including data conversions,
centralized help desk support, training, quality assurance, site support, e-learning,
and website services). DFAS coordinates with DISA SMC Ogden to provide

                                     15
       program IT infrastructure support. Additionally, DFAS and DISA Ogden SMC
       work closely with NAVSISA for all DPAS software development, maintenance,
       and testing. Finally, these entities work closely with the DPAS Configuration
       Control Board (CCB), made up of headquarters level property managers
       representing the user community, to review the application’s functionality,
       propose changes, and provide recommendations as needed. The CCB meetings
       also provide DoD property managers with a forum to learn from each other and
       share solutions to common problems. Figure 2 below provides a graphical
       representation of the DPAS oversight and support structure.
Figure 2:

                            DPAS Organization


   Propertyand
  Property  and
    Equipment              Configuration Control
   Equipment
     Program                      Board
    Program


                                                         Central Design Activity
                                     AdHoc
                                        Hoc            (NAVSISA, Mechanicsburg, PA)
      Program
     Program                        Ad             • Software Development
    Management                        User
                                     User
   Management                                      • Software Maintenance
        DPAS                         Groups
                                    Groups
       DPAS                                        • Customer Support




                                                            System Support
            Program Management Support                      (DISA- Ogden, UT)
                   (DFAS, Columbus, OH)             • Management
    • Fielding & Conversion                         • System Operation & Security
    • Field Training & User Support                 • Help Desk
    • Data Integrity & QA
    • Help Desk

                                                            System Support
                                                         (DISA-Dayton, OH)
                                                    • Database Storage & Management
                                                    • System Operations



       Personnel Policies and Procedures

       Hiring practices at each of the service organizations are in accordance with DoD
       Instruction 8500.2, “Information Assurance (IA) Implementation,” February 6,
       2003, availability control, “IA Documentation,” which requires that all
       appointments to required IA roles are established in writing, including assigned
       duties and appointment criteria such as training, security clearance and IT-
       designation. DPAS management, support employees, and contractors at DFAS,
       DISA, and NAVSISA are required to review applicable administrative orders,
       policies, and procedures with the Human Resource Office and must complete
       appropriate forms to gain access to the DPAS System. New employees meet with
       the Information Systems Security Manager to understand their roles and

                                              16
responsibilities. The Information Systems Security Manager is responsible for:
(1) providing basic systems security awareness training (2) securing civilian and
contractor signatures on Automated Data Processing Security Awareness
disclosure forms, (3) identifying to the employee who their Terminal Area
Security Officer (TASO) is and what the TASO’s responsibilities are, and
(4) notifying appropriate personnel to provide access to DPAS when an employee
or contractor is hired or terminated.

The mission assurance category (MAC) of an information system reflects the
importance of information relative to the achievement of DoD goals and
objectives, particularly the war fighter combat mission. MACs are the basis for
determining availability and integrity control requirements. In accordance with
DoD Directive 8500.1 and DoD Instruction 8500.2, the MAC for DPAS has been
determined to be MAC III. MAC III is defined as a system that, “…handles
information necessary to conduct day-to-day business, but does not materially
affect support to deployed or contingency forces in the short-term.” MAC III
applications require protective measures, techniques, or procedures generally
commensurate with commercial best practices. The confidentiality level of the
system has been established as Sensitive. The DPAS System Security
Authorization Agreement (SSAA) addresses the requirements for background
checks, gaining access to the application, and segregation of duties for support
personnel and the user community. This includes controlling access to DPAS by
using identification and authentication mechanisms such as User IDs and
passwords, and using discretionary access, auditing, and object reuse controls.
DPAS operates with the following objectives:

   a. DPAS information shall be handled as sensitive but unclassified.

   b. Adequate measures shall be in effect to ensure that data is being
      transferred securely across communication channels.

   c. All access through firewalls will be authenticated.

   d. Identification and Authentication will be accomplished within DPAS by
      using unique user logins and passwords.
   e. Discretionary Access Controls will be implemented within databases.

User Accounts are managed by the System Administrator located at the DISA
Ogden SMC and by Site Security Officers. Personnel requesting access to DPAS
are required to submit a System Authorization Access Request (SAAR), DD
Form 2875, including the status of the user's background check and clearance
level to the DISA Ogden Security Office prior to being granted access.
Completion of the form requires the user to accept the User Agreement to comply
with DISA and DoD security policies and the responsibility for safeguarding
information contained in the system. Within their capabilities, each user shall
protect information and automated information systems resources against
sabotage, tampering, denial of service, espionage, fraud, misappropriation,
misuse, or release to unauthorized persons. Users shall report all such

                                   17
occurrences to their TASO or Information Assurance Officer (IAO) immediately.

DPAS developers and maintainers at DFAS, DISA, and NAVSISA, as well as the
end users, are required to have favorable personnel background investigations.
The level of investigation depends on the sensitivity level of the automated data
processing (ADP) position assigned to each individual in accordance with the
DoD 5200.2-R, “Personnel Security Program Regulation,” issued January 1987,
and the DoD 5220.22-M, “National Industrial Security Program Operating
Manual,” issued January 1995.

Individuals in positions designated ADP-I require a Single Scope Background
Investigation. Examples of positions that are designated ADP-I are Designated
Approving Authorities (DAA), Program Managers, System Managers,
Information System Security Managers, and Network Security Managers. All
local area network administrators who have the ability to assign user-IDs and
passwords or the capability to grant access to sensitive files will also occupy
ADP-I positions. The Director of DFAS may assign ADP-I sensitivity levels to
other unique positions.

Individuals in positions designated ADP-II and ADP-III require a National
Agency Check Plus Written Inquiries, or an equivalent level of investigation.
Persons assigned ADP-II designations do not make executive decisions regarding
management of IT systems, hardware, or software, and are subordinate to ADP-I
positions. These positions include IAOs, TASOs, application and systems
programmers, operators, customer service personnel, schedulers, tape librarians,
and secretaries. All other positions involved in DPAS activities should be
assigned ADP-III except for contractor positions that require a National Agency
Check investigation only.

Training

Personnel at DFAS, DISA, and NAVSISA are required to complete continuing
education. Training objectives for continuing education are captured in the
Individual Development Plans by each individual and their supervisor.


DPAS training is obtained by service organization personnel through the DPAS
Security Awareness Guide, DPAS Operational Support Team Troubleshooting
Guide, and Knowledge Management system. The DISA Online Training System
provides training-related technical services used in the DPAS application.
Support personnel at DFAS, DISA, and NAVSISA are required to receive annual
security awareness training through their respective agency or service. Each
agency or service is required to follow the DoDI 8500.2 guidelines in providing
security awareness training. In addition, DPAS application-specific security
training covers roles and responsibilities for the DPAS end user. Documentation
of training is recorded in an attendance roster and a certificate of completion is
provided to each user. Training is monitored for content and kept up-to-date by

                                    18
agency or service security and training coordinators. Training for the user
community is offered by DFAS but is not required.

Security training focuses on those processes that ensure only authorized users
gain access to the application and specific programs. DPAS IAO’s and Technical
Points of Contact are provided training for proper access control and setting up
user profiles at the DPAS program and user levels. This training is provided in
conjunction with the standard courses for DPAS Basic and Basic Plus.

The DPAS User Training Manual addresses administrative issues such as granting
security access, assigning multiple accountable UICs to users, modifying the
DPAS program, and user access. In addition, DPAS users receive the DPAS
Security Awareness Guide that explains security awareness and appropriate
measures to safeguard the system. The guide is provided to users when new
accounts are set up, during training, and annually.

C. Monitoring

Management and supervisory personnel at DFAS, DISA, and NAVSISA monitor
the performance quality and internal control environment as a normal part of their
activities. DFAS, DISA, and NAVSISA implemented a number of management,
quality assurance, and operational reports that help monitor the performance of
DPAS processing as well as the DPAS system itself. These reports are reviewed
by DFAS, DISA, and NAVSISA. Corrective action is taken as necessary. DPAS
processing problems and exceptions to normal or scheduled processing through
hardware or software are logged, reported, and resolved.

DISA Field Security Operations

DPAS is subject to a System Readiness Review (SRR) process that consists of
running automated SRR scripts and manual checks to compare DPAS system
security settings to recommended security settings documented in the DISA
Security Technical Implementation Guides (STIGs). These SRRs include only
the software portion of the STIG. The SRR process is performed on the DPAS
operating system, the database management system, and web services. DISA
system administrators are responsible for executing and tracking the SRR
processes on a weekly basis. Findings noted during the SRR processes are
monitored at DISA, Montgomery, AL. The DISA Field Security Operations
(FSO) performs SRRs of systems supported by DISA to determine whether those
systems are in compliance with relevant STIGs. The SRR performed by the FSO
is a full STIG compliance review that typically occurs annually. The DPAS
system components that are maintained by DISA are subject to FSO reviews. The
FSO is independent of the DISA Ogden management structure and does not
maintain or configure DPAS systems.

Findings noted during the FSO SRR process are categorized according to severity
and tracked in the Vulnerability Management System (VMS) database. VMS is

                                    19
an online web based database with access protected by user IDs and user security
profiles. System Administrators, IAOs or Information Assurance Managers
(IAM) have the responsibility to close findings in the database as they are
mitigated in the systems. A member of the FSO staff must validate finding
resolutions. The FSO also performs random validation checks of resolved
findings to ensure that corrective actions are actually taking place. Some findings
can be exempt from resolution if technical or business needs require a
noncompliant setting. Exceptions are usually for a limited time and must be
approved by the IAM prior to final approval by the DAA.

The Information Assurance Vulnerability Alert tracking system in the VMS
database generates management reports that are checked daily by the IAM to
monitor Information Assurance Vulnerability Alert compliance. Results of SA,
IAO, and IAM mitigation and closure efforts are provided to the DAA.

DITSCAP Certification and Accreditation

DoD Directive 5200.40, DITSCAP, issued December 30, 1997, and
DoD 8510.1-M, “DITSCAP Application Manual,” issued July 31, 2000,
established the DITSCAP as the standard DoD certification and accreditation
process. Certification is the comprehensive evaluation of the technical and non-
technical security features of an information system and other safeguards made in
support of the accreditation process to establish the extent to which a particular
design and implementation adheres to specified security requirements.
Accreditation is the formal declaration by a DAA that an information system is
approved to operate in a particular security mode using a prescribed set of
safeguards at an acceptable level of risk. DITSCAP establishes a standard
process, set of activities, general tasks, and a management structure to certify and
accredit an information system that will maintain the IA and security posture of
the Defense Information Infrastructure. This process supports an infrastructure-
centric approach with a focus on the mission, environment, and architecture.

DPAS must comply with all of the DITSCAP certification and accreditation
requirements throughout its life cycle and document the requirements in the
SSAA. The SSAA is a formal agreement with the DAA(s), the Certifier, user
representative, and program manager employed to guide actions, document
decisions, specify IA requirements, document certification tailoring and level-of-
effort, identify potential solutions, and maintain operational systems security.
SSAAs were prepared for the DPAS application and the supporting operating
environment.

Trouble Management System Function

DPAS system problems are usually identified by a DPAS user or by a monitoring
process executed at the support organization. The problem is logged into the
Trouble Management System maintained by NAVSISA. A trouble ticket number
is assigned in the log and a technician to return the system to a fully operational

                                     20
state is identified and recorded on the ticket. The Trouble Management System is
monitored by NAVSISA to ensure tickets are closed timely, and by the Software
Director to ensure their knowledge of the operational state of the system. The
Trouble Management System ticket is monitored to ensure the completion of the
proposed corrective action, as well as actions taken to return the system to full
operational capability.

Data Evaluation and Quality Assurance Function

The DFAS Data Evaluation and Quality Assurance function provides recurring
and special reports, data extracts, data analysis, and recommendations to improve
DPAS data integrity and program efficiency. These reports are generated on a
monthly basis, captured electronically onto compact discs, and distributed to CCB
representatives. The Quality Assurance branch monitors data quality to measure
improvement over time in the areas of asset management, accountability, and
financial reporting accuracy.

Department of Defense, Office of Inspector General

The DoD OIG was established by Congress to conduct and supervise audits and
investigations related to DoD programs and operations. The DoD OIG reports
directly to the Secretary of Defense and is independent of DFAS and DISA.
DPAS, as well as the property accountability processes it supports, is part of the
DoD OIG audit universe and is subject to financial, operational, and IT audits,
reviews, and special assessment projects.


Office of the Inspector General, Defense Information Systems Agency

DISA has its own Office of the Inspector General, which is an independent office
within DISA that conducts internal audits, inspections, and investigations. The
DISA-related components that support DPAS are part of the DISA Office of the
Inspector General audit universe and are subject to audits, inspections, and
investigations conducted by the DISA OIG.

D. Risk Assessment

Threats, vulnerabilities, and risks associated with DPAS operations are
documented in the application and enclave SSAAs with personnel from DFAS,
DISA, and NAVSISA participating in the risk assessments. Among the tools
utilized for conducting risk assessments are a comprehensive evaluation of the
MAC Controls referenced in DoD Instruction 8500.2 and applicable Phase II, III,
and IV tasks documented in DoD 8510.1-M. The MAC controls address the areas
of Security Design and Configuration, Identification and Authentication, Enclave
and Computing Environment, Enclave Boundary Defense, Physical and
Environmental, Personnel, Continuity and Vulnerability, and Incident
Management. The procedures outlined in DoD 8510.1-M cover risk in the

                                     21
following major areas: System Architecture Analysis, Software, Hardware,
Firmware Design Analysis, Network Connection Rule Compliance Analysis,
Life-cycle Management Analysis, Vulnerability Assessment, Security Testing and
Evaluation, Penetration Testing, System Management Analysis, and Contingency
Plan Evaluation. The SSAA describes Residual Risk Assessments and documents
vulnerabilities noted during DPAS tests and analyses. The SSAA also documents
risk mitigation strategies designed to protect information commensurate with the
level of risk and magnitude of harm resulting from loss, misuse, unauthorized
access, or modification. The SRR processes described in the Monitoring section
also provide management a means to assess and track potential security risks
associated with the DPAS technical infrastructure.

E. Information and Communication

Users can submit a change request to the DPAS CCB, which makes the final
determination on the implementation of changes to the system. There is a
documented system request process that considers emerging information needs of
the user community.

On an annual basis, each support organization independently develops a DPAS
program strategy that is summarized in a support agreement known as a Service-
Level Proposal or Service-Level Agreement. The strategies are based on user
needs expressed through their CCB member, technology changes, challenges
discussed during DPAS program reviews, changes in policies and procedures
from the Comptroller and logistics communities, and budgetary realities input
from the respective support organizations.

There are three DPAS support agreements in place that are reviewed and updated
annually. These Service-Level Agreements detail the roles and responsibilities of
the various entities involved in providing support to DPAS.

1. OUSD, AT&L, Arlington, VA, and the Department of the Navy, NAVSISA,
   Mechanicsburg, PA.

   As detailed in the Service-Level Agreement, NAVSISA provides OUSD,
   AT&L the following services:


       a.   Software Development Services
       b.   Software Maintenance and Operating Support
       c.   Management Reporting
       d.   Other Support (Provides briefings to DPAS user groups and user
            conferences as requested by the customer. Provides software and
            scanner web-site content as required by the DPAS Web-Site Review
            Board. Updates DPAS trainer personnel on software changes as
            required. Provides technical support to various DPAS support
            initiatives such as e-learning, security documentation, web-site, and

                                     22
            classroom training.)

2. DISA and the OUSD, AT&L.

   As detailed in the Service-Level Agreement, DISA provides OUSD, AT&L
   the following services:

       a. Server Processing
       b. Telecommunications Services
       c. Support Services, including technical and operational support for the
          DPAS application, Security, System Administration, Network
          Communications, Database Management, Operations, Customer
          Technical Liaison, and the Web Server
       d. Full Cost Recovery Services, including processing cycles, input and
          output transfers, memory utilization, storage of and access to data
          maintained on direct access storage devices, and network connectivity

3. Director, Property and Equipment Policy, OUSD, AT&L, Arlington, VA, and
   the Defense Finance Accounting Service Technology Services Organization,
   DPAS Program Management Support Division.

   As detailed in the Service-Level Agreement, DFAS Columbus provides
   OUSD, AT&L the following services:

       a. Administration
       b. Program planning
       c. Program management support
       d. Customer support that includes implementations, data assurance
          customer assistance, call center, help desk, web-site development and
          administration
       e. Customer training
       f. Oversight of the software development and maintenance service
          provided by NAVSISA, and
       g. Oversight of systems infrastructure support operational services and
          data processing services provided by DISA



Ongoing written communication between DPAS support community
organizations and staff helps to ensure that program objectives and important
information are clearly shared. Support organizations also meet to discuss
program issues and project objectives including performance, areas of concern,
accomplishments, anticipated workload changes, and project status reports.
NAVSISA provides weekly status reports on deliverables and services via update
of the Configuration Management Tracking System (CMTS). In-Process
Reviews are conducted on project status and open management issues. CCB
meetings are held biannually to communicate issues including new DPAS

                                   23
releases to the user community. The DPAS support entities participate with the
CCB in meetings, briefings, or site visits to discuss processing and program
issues.

The DPAS Help Desk provides customer support from 6 a.m. until 6 p.m. and an
on-call service for all other times. The Help Desk mission is to provide customers
a single place to call for their support needs. Help Desk agents are responsible for
tracking and responding to customer requests including those that come in
through the DPAS web site, email, or the Call Center. The agents track issues
that require system changes through the Program Trouble Report (PTR) process
until they are resolved.

The DPAS program provides a public website that contains information on the
DPAS program mission and goals, software, support, training, and guidance.
The support areas include customer, technical, security, training, and management
support, as well as quality assurance.

F. Control Activities

The DPAS control objectives and related control activities are included in Section
III of this report, “Information Provided by the Service Auditor,” to eliminate the
redundancy that would result from listing them in this section and repeating them
in Section III. Although the control objectives and related controls are included in
Section III, they are, nevertheless, an integral part of management’s description of
controls.

G. User Control Considerations

DPAS was designed with the assumption that certain controls would be
implemented by DPAS user organizations. This section describes additional
controls that should be in operation at DPAS user organizations to complement
the controls maintained by DFAS, DISA, and NAVSISA. User auditors should
consider whether the following controls have been placed in operation at user
organizations:




Authorization Controls

       •   Property in transit in which the government has taken title is recorded
           by the Property Custodian and has been approved by the Property
           Book Officer (PBO).


                                    24
      •   Recorded additions and changes to the asset register and master file
          made by the Property Custodian are compared to source documents
          authorized by the PBO to ensure that they were input accurately.

      •   Assets are periodically inventoried by the Hand Receipt Holder and
          then the PBO to ensure that hand receipts match assets recorded in the
          asset register. Reconciling items are identified and addressed by the
          Hand Receipt Holder in a timely manner.

      •   Authorized users of DPAS and their specific access needs are
          approved by the PBO and the Information Systems Security Officer,
          and directly communicated in writing by the resource owner to DISA-
          Ogden.

      •   Personnel responsible for asset acquisition, disposal, recording, and
          maintenance have responsibility for only one such function and do not
          have system access to other than their assigned function.

      •   The Information Systems Security Officer has configured system
          security so that only authorized users have the ability to enter, modify,
          or otherwise alter property records.

Completeness Controls

      •   The PBO and user’s accounting function periodically review the asset
          register and master file data for accuracy, ongoing pertinence, and
          reconciliation to the corresponding general ledger accounts.
          Reconciling items are addressed by the PBO in a timely manner.

      •   The Property Custodian accurately records the values and physical
          units of beginning balances, acquisitions, and property held for
          disposal and retirement in DPAS.

      •   Requests to change the asset register and master file data are logged
          and reviewed by the PBO to ensure that all requested changes are
          processed timely.

      •   Asset-related transactions before or after the end of an accounting
          period are scrutinized and reconciled by the user’s accounting function
          to ensure complete and consistent recording of transactions in the
          appropriate accounting period.

      •   Asset and accumulated depreciation balances are carried forward from
          one processing cycle to the next by the user’s accounting function,
          using independently obtained asset acquisition, asset disposal, and
          depreciation expense data.


                                   25
       •   Depreciation charges are reviewed by the PBO and the user’s
           accounting function to determine whether the charges are accurate,
           complete, and recorded in the appropriate period.

       •   The PBO identifies DoD property accountability policies,
           communicates those policies to property personnel, and updates
           standard operating procedures to reflect policy changes.

Accuracy Controls

       •   The Property Custodian accurately records the method and costs of
           acquiring each property item or bulk property item.

       •   Depreciation exception items are consistently identified, monitored,
           and corrected by the PBO and the user’s accounting function.

Control Over The Integrity of Processing and Data Files

       •   The Property Custodian accurately records property in-transit
           information to establish and maintain accountability and control over
           property.

       •   Processing out-of-balance reports are reviewed promptly by the PBO
           and the user’s accounting function and followed up by the PBO to
           determine the cause of the out-of-balance condition.

       •   The PBO periodically reviews error reports that list rejected
           transactions and corrects them within a reasonable time.

       •   All changes to the asset register and master file are approved by the
           PBO.

       •   The PBO reviews audit trails of changes to property records including
           a transaction-based history of property activity, modifications,
           improvements, changes in value, and the data entry and approval.

       •   Interfaced inputs are transmitted in batch files, and batch control totals
           are used to balance sent transactions to received transactions. Out-of-
           balance conditions are reported, corrected, and reentered.

The list of user-organization control considerations presented above does not
represent a comprehensive set of all the controls that should be employed by user
organizations. Other controls may be required at user organizations.




                                     26
Section III: Control Objectives, Control Activities, and Tests of
                    Operating Effectiveness




                               28
III. Control Objectives, Control Activities, and Tests of
Operating Effectiveness
A. Scope Limitations

The control objectives documented in this section were specified by the DoD OIG. The
control activities described in this section were specified by DISA, DFAS, and
NAVSISA management. As described in the prior section (Section II), DPAS interfaces
with many systems. The controls described and tests of these controls in this section of
the report were limited to those computer systems, operations, and processes directly
related to DPAS itself. The controls related to DPAS source and destination systems
interfaces were specifically excluded from this review. We did not perform procedures to
evaluate the effectiveness of the input, processing, and output controls within interfacing
systems; although we did perform procedures to evaluate DPAS interface input and
output controls. We did not perform any procedures to evaluate the integrity and
accuracy of the data contained in DPAS.




                                            30
B. Control Objectives, Control Activities, and Tests of Operating Effectiveness

CO    Control Objective          Control Activity            Test Procedure                         Results of Testing
No.
      Enterprise-Wide Security Program Planning
 1    Risks are periodically      DISA-Ogden, DFAS-          DFAS-Columbus                          The DITSCAP Phase II
      assessed.                   Columbus                   Read the latest Risk Assessment        and Phase III Summary
                                  Risk assessments are       performed with the SSAA and            Analysis Reports for
                                  performed as part of the   confirmed with the Branch Chief,       each task were not
                                  DITSCAP compliance         Quality Assurance Division that        documented and
                                  process. Automated         risks were periodically assessed.      included in the SSAA.
                                  System Readiness                                                  However, a checklist was
                                  Reports (SRR) scripts      Read the annual IA assessment and      completed for each Phase
                                  are run on each server     confirmed with the ISSO that           II and Phase III task and
                                  and reported to the        existing policies and processes were   a Risk Assessment and
                                  Montgomery SRR             assessed annually.                     an IA assessment were
                                  database on a weekly                                              performed. The intent of
                                  basis. Each system has     DISA-Ogden                             the objective was
                                  an SRR and an Internet     Observed the SRR process to            achieved.
                                  Security Systems (ISS)     confirm that it occurred and that
                                  scan performed before it   corrective actions were tracked.
                                  is connected to the
                                  network. The DISA FSO      Selected a haphazard sample of
                                  runs periodic SRRs and     SRRs performed by DISA-Ogden
                                  ISS scans. SRR findings    and inspected the VMS reports to
                                  are documented and         confirm findings identified by the
                                  tracked in the VMS.        SRR process had been addressed.




                                                             31
CO    Control Objective           Control Activity          Test Procedure                       Results of Testing
No.

2     A security plan is          DFAS-Columbus             DFAS-Columbus                        No relevant exceptions
      documented and               The DPAS security plan   Read the DPAS SSAA to confirm it     noted.
      approved.                   is documented,            had been documented, updated and
                                  maintained, approved,     appropriately approved.
                                  and periodically
                                  updated.                  Read the annual IA assessment to
                                                            confirm that existing policies and
                                                            processes were assessed annually.
3     The security plan is kept   DFAS-Columbus             DFAS-Columbus                        No relevant exceptions
      current.                    The DPAS security plan    Read the DPAS SSAA to confirm it     noted.
                                  is documented,            had been documented, updated and
                                  maintained, approved,     appropriately approved.
                                  and periodically
                                  updated.                  Read the DPAS Systems Security
                                                            Policy, Security Requirements, and
                                                            Certification Test and Evaluation
                                                            Plan and Procedures to confirm
                                                            that each had been updated.

                                                            Read the annual IA assessment to
                                                            confirm that existing policies and
                                                            processes were assessed annually.


4     A security management       DISA-Ogden                DISA-Ogden                           The security
      structure has been          An IAM and Alternate      Confirmed through inquiry that a     management structure
      established.                IAM have been assigned.   management structure had been        contained position titles



                                                            32
CO    Control Objective      Control Activity           Test Procedure                        Results of Testing
No.
                             There are Information      established.                          that were not in
                             Assurance Officers                                               accordance with DOD
                             (IAOs) for each type of    Read the DISA-Ogden                   8500.2 requirements.
                             operating system and       organizational chart and job          However, we confirmed
                             TASOs assigned to each     descriptions to confirm that all      through interviews and
                             area.                      positions were established in         inspection of the
                                                        writing.                              organizational chart and
                                                                                              job descriptions that a
                                                        Read the SSAA for the security        security management
                                                        management structure. Confirmed       structure was in place.
                                                        each position was outlined in the     The intent of the
                                                        SSAA.                                 objective was achieved.


5     Information security   DISA-Ogden                 DISA-Ogden                            No relevant exceptions
      responsibilities are   An IAM and Alternate       Read the SSAA for the security        noted.
      clearly assigned.      IAM have been assigned.    management responsibilities.
                             There are IAOs for each    Confirmed each position outlined in
                             type of operating system   the SSAA was filled and the person
                             and TASOs assigned to      understood their duty.
                             each area.
                                                        Read the DISA-Ogden
                                                        organizational chart and job
                                                        descriptions to confirm that all
                                                        positions were established in
                                                        writing.

6     A set of rules that    DISA-Ogden                 DISA-Ogden                            No relevant exceptions



                                                        33
CO    Control Objective          Control Activity             Test Procedure                          Results of Testing
No.
      describe the IA            The DPAS SSAA                Obtained the DISA-Ogden SSAA            noted.
      operations of the DoD      describes IA                 and job descriptions. Confirmed
      information system and     responsibilities and         that the SSAA and job descriptions
      clearly delineate IA       expected behavior of         clearly delineated responsibilities
      responsibilities and       personnel.                   and expected behavior.
      expected behavior of all
      personnel is in place.                                  Read the DISA-Ogden
                                                              organizational chart and job
                                                              descriptions to confirm that all
                                                              positions were established in
                                                              writing.

7     Owners and users are       DISA-Ogden                   DISA-Ogden                              The DPAS Program
      aware of security          Each new employee and        Read the Security Awareness             Manager, DISA- Ogden,
      policies.                  contactor is provided        Training provided by DISA-Ogden.        did not attend the 2004
                                 with a security briefing.    Selected a haphazard sample of          annual training.
                                 They must also sign that     employees and read their training       However, the DPAS
                                 they have received this      files to confirm the completion of      Program Manager did
                                 briefing. This briefing is   the necessary security training and     not have system access to
                                 provided annually to         a signoff.                              DPAS. As such, the
                                 employees and                                                        DPAS Program
                                 contractors.                 Inspected the training sign-in sheets   Manager’s lack of
                                                              to confirm that DISA-Ogden              training presents
                                                              employees had attended annual           minimal risk to DPAS.
                                                              training.

8     An incident response       DISA-Ogden                   DISA-Ogden                              No relevant exceptions
      capability has been        An incident response         Confirmed through inspection that       noted.



                                                              34
CO    Control Objective      Control Activity             Test Procedure                          Results of Testing
No.
      implemented.           plan has been established the incident plan detailed in the
                             and documented in the     SSAA had been implemented.
                             DISA-Ogden SSAA.          Selected a haphazard sample of
                                                       incidents to confirm that the
                                                       incident response plan was being
                                                       followed.

9     Hiring, transfer,      DISA-Ogden                   DISA-Ogden                              The DPAS Program
      termination, and       For security purposes, all   Read the hiring, transfer,              Manager, DISA- Ogden,
      performance policies   newly hired personnel        termination and performance             did not attend the 2004
      address security.      are required to have:        policies of DISA-Ogden to confirm       annual training.
                             1. Completed National        they were documented.
                                Agency Check                                                      However, the DPAS
                                personal security         Inspected a haphazard sample of         Program Manager did
                                investigations for all    System Access Authorization             not have system access to
                                functional users          Request (SAAR) Form 2875 to             DPAS. As such, the
                                (civilian, military,      confirm that each Form 2875             DPAS Program
                                and contractors), as a    detailed the user’s justification for   Manager’s lack of
                                minimum.                  access, security clearance level, and   training presents
                             2. Registration of all       that each Form 2875 was properly        minimal risk to DPAS.
                                users by Defense          approved.
                                Enterprise
                                Computing Center          Confirmed through inquiry that a
                                (DECC) System             debrief is conducted when an
                                Administrators, IAO,      employee is terminated and that a
                                or the specific data      DISA Form 70 is used to note the
                                owners.                   collection of DISA property.
                             3. Specified system



                                                          35
CO    Control Objective   Control Activity             Test Procedure                          Results of Testing
No.
                               and/or application      Confirmed through observation
                               permissions that only   that an email is sent to the Security
                               allow access to         Administrator to request that
                               required, ‘need to      system access be removed for a
                               know’ information.      terminated employee.
                          4.   Unique User
                               Identification (ID)     Selected a sample of all DPAS
                               and password for all    related employees located at DISA-
                               users.                  Ogden and inspected the annual
                          5.   Specific DECC           security sign-in sheets to confirm
                               system training.        that each employee had completed
                          6.   Initial and refresher   the training.
                               Information Security
                               training.
                          7.   DISA Form 2875 for
                               all DECC system
                               users.

                          For transfer and
                          termination of personnel,
                          the following is required:
                          1. Debriefing is
                             conducted.
                          2. Reminder of the non-
                             disclosure agreement.
                          3. DISA form 70
                             checklist is used to
                             ensure collection of



                                                       36
CO    Control Objective       Control Activity            Test Procedure                       Results of Testing
No.
                                 DISA property.
                              4. Signed DISA
                                 termination
                                 statement.
                              5. Email is sent to
                                 System
                                 Administrators to
                                 remove all system
                                 access.

10    Employees have          DISA-Ogden                  DISA-Ogden                           The System
      adequate training and   Employees are required      Confirmed through inquiry that       Administrator-specific
      expertise.              to complete periodic        employees had adequate training      training was outdated
                              training for their          and expertise.                       and did not provide a
                              respective job functions.                                        means to verify whether
                                                          Read System Administrator            a user had successfully
                                                          training materials to confirm that   completed the training
                                                          they provided each System            materials. However, we
                                                          Administrator with adequate          confirmed through
                                                          training and expertise.              inspection of annual
                                                                                               security training
                                                                                               attendance sheets that
                                                                                               DISA-Ogden employees
                                                                                               attended annual security
                                                                                               training. The intent of
                                                                                               the objective was
                                                                                               achieved.




                                                          37
CO    Control Objective           Control Activity             Test Procedure                        Results of Testing
No.
11    A program is                DISA-Ogden                   DISA-Ogden                            The DPAS Program
      implemented to confirm      Each new employee and        Read the Security Awareness           Manager, DISA- Ogden,
      that upon arrival and       contactor is provided        Training provided by DISA-Ogden.      did not attend the 2004
      periodically thereafter,    with a security briefing.                                          annual training.
      all personnel receive       They must also sign that     Selected a haphazard sample of        However, the DPAS
      training and                they have received this      employees and read their training     Program Manager did
      familiarization to          briefing. This briefing is   files to confirm the completion of    not have system access to
      perform their assigned      provided annually to         the necessary security training and   DPAS. The DPAS
      IA responsibilities.        employees and                a signoff.                            Program Manager’s lack
                                  contractors.                                                       of training presents
                                                                                                     minimal risk to DPAS.

12    Management                  DISA-Ogden, DFAS-            DISA-Ogden                            The DPAS SSAA was
      periodically assesses the   Columbus                     Interviewed the Security Officer to   approved by the DAA, on
      appropriateness of          An IA review is              obtain an understanding of how        October 9, 2003
      security policies and       conducted by the             DISA-Ogden management assessed        providing DPAS with an
      compliance with them.       Security Officer that        the appropriateness of the security   ATO; however, we
                                  comprehensively              policies and compliance with them.    determined that the
                                  evaluates existing                                                 SSAA was not in total
                                  policies and processes to    Read the DPAS Security                compliance with
                                  ensure procedural            Requirements and Information          DITSCAP. Since the
                                  consistency and to ensure    Systems Security Policy               ATO, We noted that
                                  that they fully support      Certification Test and Evaluation     sections of the DPAS
                                  the goal of uninterrupted    Procedures to confirm that an         SSAA had been updated
                                  operations.                  annual IA review was conducted        in accordance to DoDI
                                                               and that comprehensive                8500.2 DCAR-1;
                                                               vulnerability management was in       however, all required
                                                               place.                                DITSCAP Phase II and



                                                               38
CO    Control Objective         Control Activity         Test Procedure                         Results of Testing
No.
                                                                                                III analysis had not been
                                                         DFAS-Columbus                          properly performed and
                                                         Read the annual IA assessment to       documented. We noted,
                                                         confirm that existing policies and     however, that a checklist
                                                         processes were assessed annually.      had been documented for
                                                                                                each Phase II and Phase
                                                         Read the DPAS SSAA to confirm          III task.
                                                         that the latest risk assessment was
                                                         conducted in 2003.




13    Management ensures        DISA-Ogden               DISA-Ogden                             No relevant exceptions
      that corrective actions   Corrective actions are   Interviewed management personnel       noted.
      are effectively           tested after they have   to gain an understanding of how
      implemented.              been implemented and     operating system patches, updates
                                monitored on a           and changes were implemented.
                                continuing basis.
                                                         Observed the SRR process to
                                                         confirm that corrective actions were
                                                         implemented for identified SRR
                                                         findings.

                                                         Selected a haphazard sample of
                                                         SRRs and inspected the VMS
                                                         reports to confirm findings
                                                         identified by the SRR process had



                                                         39
CO    Control Objective           Control Activity          Test Procedure                       Results of Testing
No.
                                                            been addressed.
14    A comprehensive             DISA-Ogden                DISA-Ogden                           No relevant exceptions
      vulnerability               Software and hardware     Read the vulnerability management    noted.
      management process          vulnerabilities are       policy to confirm that the process
      that includes the           independently validated   included systematic identification
      systematic identification   through inspection and    and migration of software and
      and mitigation of           automated vulnerability   hardware vulnerabilities had been
      software and hardware       assessment or state       documented and resolved.
      vulnerabilities is in       management tools. VMS
      place.                      and Information
                                  Assurance Vulnerability
                                  Alert are utilized to
                                  track and maintain
                                  system vulnerability
                                  status.
15    Changes to the DoD          DISA-Ogden                DISA-Ogden                           No relevant exceptions
      information system are       SRR scripts are run on   Observed the SRR process to          noted.
      assessed for IA and          each server and          confirm that it occurred and that
      accreditation impact         reported to the          corrective actions were tracked.
      prior to implementation.     Montgomery SRR
                                   database on a weekly     Observed the system software
                                   basis. Each system has   change control process for DISA-
                                   an SRR and an ISS scan   Ogden and confirmed that changes
                                   performed before it is   were properly approved before
                                   connected to the         implementation.
                                   network. The DISA FSO
                                   runs periodic SRRs and   Inspected a sample of system
                                   ISS scans. All system    changes and confirmed that



                                                            40
CO    Control Objective           Control Activity            Test Procedure                      Results of Testing
No.
                                 software changes must        changed were only implemented
                                 be reviewed and              after proper approval or not
                                 approved prior to            implemented if not approved.
                                 implementation.
16    A DoD reference           DISA-Ogden                    DISA-Ogden                          No relevant exceptions
      document constitutes the The DISA UNIX STIG,            Read the DoD Directives 8500.01,    noted.
      primary source for        and DISA Instruction          8500.02, 8510.1-M, the DISA
      security configuration or Information Systems           Database STIG, DISA UNIX STIG,
      implementation guidance Security Program 630-           and DISA Instruction Information
      for the deployment of     230-19 are the primary        Systems Security Program 630-230-
      newly acquired IA- and    documents used to frame       19 to confirm that they constituted
      IA-enabled IT products. the internal security           the primary source configuration or
                                requirements of the           implementation guidance for the
                                DPAS application.             deployment of newly acquired IA-
                                                              and IA-enabled products.


      Access Controls
17    Resource classifications    DFAS-Columbus             DFAS-Columbus                         No relevant exceptions
      and related criteria have   The MAC Level has been    Read the DPAS SSAA and                noted.
      been established.           assigned and periodically confirmed that a MAC level had
                                  reviewed.                 been assigned to DPAS and
                                                            reviewed.
18    Owners have classified      DFAS-Columbus             DFAS-Columbus                         No relevant exceptions
      resources.                  The MAC Level has been Read the DPAS SSAA and                   noted.
                                  assigned and periodically confirmed that a MAC level had
                                  reviewed.                 been assigned to DPAS and
                                                            reviewed.


                                                              41
CO    Control Objective          Control Activity            Test Procedure                        Results of Testing
No.
19    Resource owners have       DFAS-Columbus               DFAS-Columbus                         No relevant exceptions
      identified authorized      User access roles within    Observed documentation that           noted.
      users and their level of   DPAS are defined            defined user roles and
      access.                    according to job            responsibilities.
                                 description, Modules
                                 Accessed, Access            Observed the application to confirm
                                 Privilege, Required         that users required a valid Login
                                 Module, Module              and Password to gain access to the
                                 Sensitivity, and Position   system.
                                 Sensitivity.
                                                             Observed that a user account was
                                                             assigned a Security Profile that
                                                             restricted access by module,
                                                             program, Unit Identification Code
                                                             (UIC), and Hand Receipt.

20    Emergency and              DISA-Ogden                  DISA-Ogden                            No relevant exceptions
      temporary access           Emergency and               Read the emergency and temporary      noted.
      authorization is           temporary access            access policy. Selected a sample of
      controlled.                authorizations are          emergency and temporary access
                                 documented on standard      and confirmed that:
                                 forms and maintained on        • The authorization was
                                 file, approved by                  approved and that access
                                 appropriate managers,              was closed in a timely
                                 securely communicated              manner.
                                 to the security function,      • The emergency and
                                 and automatically                  temporary access list was
                                 terminated after a                 periodically reviewed.



                                                             42
CO    Control Objective         Control Activity             Test Procedure                         Results of Testing
No.
                                predetermined period.             • Temporary access
                                                                    authorizations were
                                                                    established for least
                                                                    privileged need-to-know
                                                                    access.
21    Owners determine          DISA-Dayton                  DISA-Dayton                            No relevant exceptions
      disposition and sharing   The “Disposition of          Obtained and read the “Disposition     noted.
      of data.                  Unclassified DoD             of Unclassified DoD Computer
                                Computer Hard Drives”        Hard Drives” policy used by DISA-
                                policy is followed for the   Dayton. Conducted inquiry of
                                disposal of equipment        DPAS Database Administrator and
                                containing sensitive         confirmed that the policy was being
                                information and              used.
                                software.
                                                             Observed the destroyed hard drives
                                DFAS-Columbus                located at DISA-Dayton.
                                Security Profiles in
                                DPAS limit the DPAS          DFAS-Columbus
                                Modules that can be          Observed that each user account
                                accessed by a user and       was assigned a Security Profile that
                                the functionality            restricted access by module,
                                provided within those        program, UIC, and Hand Receipt.
                                DPAS Modules.

22    Adequate physical         DISA-Ogden, DISA-            DISA-Ogden                          No relevant exceptions
      security controls have    Dayton                       Observed the physical safeguards in noted.
      been implemented.         Physical and logical         place for DISA Ogden to confirm
                                access controls are in       safeguards had been established to



                                                             43
CO    Control Objective   Control Activity              Test Procedure                          Results of Testing
No.
                          place to restrict             mitigate the risk of physical damage
                          employees to authorized       or access.
                          actions based on
                          organizational and            Observed that facility penetration
                          individual job                testing processes were in place that
                          responsibilities.             included periodic, unannounced
                                                        attempts to penetrate key
                          Every physical access         computing facilities and that every
                          point that displays           physical access point that displayed
                          sensitive information or      sensitive information or unclassified
                          unclassified information      information that had not been
                          that has not been cleared     cleared for release was controlled
                          for release is controlled     during business hours and guarded
                          during business hours         or locked during non-business
                          and guarded or locked         hours.
                          during non-business
                          hours. Current signed         DISA-Dayton
                          procedures exist for          Confirmed through observation
                          controlling visitor access.   that physical safeguards had been
                                                        established at DISA-Dayton to
                                                        mitigate the risk of physical damage
                                                        or access.



                                                        Observed that facility penetration
                                                        testing processes were in place that
                                                        included periodic, unannounced



                                                        44
CO    Control Objective           Control Activity           Test Procedure                          Results of Testing
No.
                                                             attempts to penetrate key
                                                             computing facilities and that every
                                                             physical access point that displayed
                                                             sensitive information or unclassified
                                                             information that had not been
                                                             cleared for release was controlled
                                                             during business hours and guarded
                                                             or locked during non-business
                                                             hours.

23    Physical safeguards have    DISA-Dayton                DISA-Dayton                           No relevant exceptions
      been established that are   All packages entering      Confirmed through inspection of       noted.
      commensurate with the       into DISA-Dayton are       penetration exercise documentation
      risks of physical damage    inspected by entry         that facility penetration testing
      or access.                  control for possible       processes were in place that
                                  bombs. Panic buttons       included periodic, unannounced
                                  notify Security in the     attempts to penetrate key
                                  case of an emergency.      computing facilities and that every
                                  The notified Security      physical access point that displayed
                                  Forces immediately         sensitive information or unclassified
                                  notify all posts and       information that had not been
                                  patrols and furnish them   cleared for release was controlled
                                  with all available         during business hours and guarded
                                  information. Security      or locked during non-business
                                  forces seal off the        hours.
                                  immediate area of
                                  DECC-Dayton, or
                                  installation               Observed that the DPAS data



                                                             45
CO    Control Objective          Control Activity            Test Procedure                        Results of Testing
No.
                                                             center was protected by fire
                                 entry exit points may be    suppression and the prevention
                                 blocked.                    devices were installed and working.
                                                             Observed that there was a UPS and
                                 Fire suppression and        that the cooling system was
                                 prevention devices are      periodically maintained.
                                 installed in the DPAS
                                 data center.                Confirmed through observation
                                                             that DISA Dayton contained a
                                 Visitors must sign-in       master power switch to stop power
                                 with the DISA-Dayton        to IT equipment was in place and
                                 Security Attendant prior    was located at the data center
                                 to entry into the DISA-     entrances and was clearly labeled.
                                 Dayton facility.




24    Visitors are controlled.   DISA-Ogden, DISA-           DISA-Ogden                            No relevant exceptions
                                 Dayton                      Read the visitor policy and           noted.
                                 Entry control is manned     procedure for DISA-Ogden to
                                 during normal business      confirm they were documented.
                                 hours, 0700-1600,           Observed the visitor check in and
                                 Monday – Friday. The        check out process for DISA-Ogden.
                                 entry control personnel
                                 manage and maintain the     Confirmed through inquiry and
                                 entry point, check          observation that visitor access to
                                 badges, and issue visitor   DoD information was determined



                                                             46
CO    Control Objective         Control Activity           Test Procedure                         Results of Testing
No.
                                badges.                    by both

                                                           its classification and user need-to-
                                                           know.

                                                           DISA-Dayton
                                                           Confirmed through inquiry that all
                                                           visitors were controlled.

                                                           Read the DOD OI 125-5 to confirm
                                                           that the instruction detailed the
                                                           procedures for obtaining access and
                                                           detailed the security procedures for
                                                           access to controlled areas.

                                                           Read the Department of the Air
                                                           Force’s penetration memorandum
                                                           to confirm that a penetration
                                                           exercise was preformed by the SFS
                                                           on the DISA-Dayton facility.
25    Adequate logical access   DISA-Ogden                 DISA-Ogden                             We noted that 4 out of 45
      controls have been        A SAAR form is              Inspected a haphazard sample of       users tested did not have
      implemented at the        required to be completed   SAAR Form 2875 to confirm that         a System Access
      application layer.        and authorized before a    each Form 2875 detailed the user’s     Authorization Request
                                user is issued access to   justification for access, security     form on file.
                                the application layer of   clearance level, and that each Form    According to DISA-
                                the system.                2875 was properly approved.            Ogden personnel, the
                                                                                                  missing forms resulted



                                                           47
CO    Control Objective   Control Activity         Test Procedure                         Results of Testing
No.
                          DFAS-Columbus            DFAS-Columbus                          from the transfer of
                          Security Profiles in     Observed that each user account        responsibility for the
                          DPAS limit the DPAS      was assigned a Security Profile that   forms from DISA-
                          Modules that can be      restricted access by module,           Dayton to DISA-Ogden.
                          accessed by a user and   program, UIC, and Hand Receipt.        DISA-Ogden believed
                          the functionality                                               they were lost during the
                          provided within those                                           physical transfer of the
                          DPAS Modules.                                                   forms from DISA-
                                                                                          Dayton to DISA-Ogden.
                                                                                          The DISA-Ogden
                                                                                          Contract Technical
                                                                                          Requirement Analyst
                                                                                          indicated to us that these
                                                                                          four users were
                                                                                          authorized to have access
                                                                                          to the system based on
                                                                                          daily interaction
                                                                                          processing authorization
                                                                                          requests. Confirmed
                                                                                          through inquiry of the IT
                                                                                          Specialist, User Creation
                                                                                          Division, and observed a
                                                                                          sample of user access
                                                                                          forms to that DPAS user
                                                                                          accounts and necessary
                                                                                          documentation was on
                                                                                          file.




                                                   48
CO    Control Objective           Control Activity            Test Procedure                        Results of Testing
No.
26    Passwords, tokens, or       DISA-Ogden, DFAS-           DISA-Ogden                            No relevant exceptions
      other devices are used to   Columbus                    Confirmed through inquiry that        noted.
      identify and authenticate   Passwords are used to       passwords were used to
      users.                      identify and authenticate   authenticate users.

                                  users when accessing the    Read the Security Account Creation
                                  DPAS application.           Guide at DISA-Ogden to confirm
                                                              that authentication devices were in
                                                              compliance with DoD standards.

                                                              DFAS-Columbus
                                                              Observed the DPAS application to
                                                              confirm that users needed a valid
                                                              User ID and Password to gain
                                                              access to the system.

                                                              Observed that accounts became
                                                              locked after three failed login
                                                              attempts.
27    Access paths are            DISA- Oklahoma City         DISA-OKC                              No relevant exceptions
      identified as part of a     (OKC)                       Confirmed through inquiry that        noted.
      risk analysis and           Access control lists        ACLs, user management controls,
      documented in an access     (ACL) have been             firewalls, intrusion detection
      path diagram.               implemented for             systems (IDS), and authentications
                                  interconnections among      were all used to control network
                                  DoD information             access.
                                  systems. The ACLs are
                                  controlled by DISA-         Observed the existence of the ACLs



                                                              49
CO    Control Objective         Control Activity           Test Procedure                       Results of Testing
No.
                                OKC.                       at DISA-Dayton by having a
                                                           network administrator display the
                                                           listing on his desktop.

                                                           Obtained and read the network
                                                           diagrams for DISA-Ogden and
                                                           DISA-Dayton to confirm that access
                                                           paths were documented and
                                                           monitored by IDSs.
28    Access is restricted to   DISA-Ogden, DISA-          DISA-Ogden, DISA-Dayton            No relevant exceptions
      data files and software   Dayton                     For the DPAS servers, confirmed    noted.
      programs.                 Access to data files and   through inquiry and inspection of
                                software programs is       root access users that access
                                limited to authorized      restrictions had been established
                                personnel on a “need-to-   around the data files and software
                                know” basis.               programs.

                                                           Inspected the access logs and
                                                           corroborated with management
                                                           that the access logs were reviewed
                                                           for inappropriate access and that
                                                           system libraries were managed and
                                                           maintained to protect privileged
                                                           programs.


29    Access settings have been DISA-Ogden, DFAS-          DISA-Ogden                           We noted that 4 out of 45
      implemented in            Columbus                   Inspected a haphazard sample of      users tested did not have



                                                           50
CO    Control Objective       Control Activity           Test Procedure                        Results of Testing
No.
      accordance with the     Access to data files and   SAAR Form 2875 to confirm that        a System Access
      access authorizations   software programs is       each Form 2875 detailed the user’s    Authorization Request
      established by the      limited to authorized      justification for access, security    form on file.
      resource owners.        personnel on a “need-to-   clearance level, and that each Form   According to DISA-
                              know” basis.               2875 was properly approved.           Ogden personnel, the
                                                                                               missing forms resulted
                                                                                               from the transfer of
                                                         DFAS-Columbus                         responsibility for the
                                                         Observed the DPAS system to           forms from DISA-
                                                         confirm that each user account was    Dayton to DISA-Ogden.
                                                         assigned a Security Profile that      DISA-Ogden believed
                                                         restricted access by module,          they were lost during the
                                                         program, UIC, and Hand Receipt.       physical transfer of the
                                                                                               forms from DISA-
                                                                                               Dayton to DISA-Ogden.
                                                                                               The DISA-Ogden
                                                                                               Contract Technical
                                                                                               Requirement Analyst
                                                                                               indicated to us that these
                                                                                               four users were
                                                                                               authorized to have access
                                                                                               to the system based on
                                                                                               daily interaction
                                                                                               processing authorization
                                                                                               requests. Confirmed
                                                                                               through inquiry of the IT
                                                                                               Specialist, User Creation
                                                                                               Division, and observed a



                                                         51
CO    Control Objective          Control Activity             Test Procedure                        Results of Testing
No.
                                                                                                    sample of user access
                                                                                                    forms to that DPAS user
                                                                                                    accounts and necessary
                                                                                                    documentation was on
                                                                                                    file.
30    Telecommunications         DISA-OKC                     DISA-OKC                              No relevant exceptions
      controls are properly      The following are used to    Confirmed through inquiry that        noted.
      implemented in             provide                      telecommunications controls were
      accordance with            telecommunication            implemented.
      authorizations that have   controls:
      been granted.                  • ACLs,                  Observed the existence of ACL,
                                     • IDS,                   IDS, Firewalls, Encryption, and
                                     • Firewalls,             Network monitoring controls.
                                     • Encryption, and
                                     • Network                Using an automated tool,
                                        monitoring.           performed passive network
                                                              monitoring of DPAS related
                                                              network traffic over a period of 10
                                                              days to test for unauthorized
                                                              network connections.
31    Procedures are in place    DISA-Dayton                  DISA-Dayton                           No relevant exceptions
      to clear sensitive         The “Disposition of          Read the “Disposition of              noted.
      information and            Unclassified DoD             Unclassified DoD Computer Hard
      software from              Computer Hard Drives”        Drives” policy used by DISA-
      computers, disks, and      policy is followed for the   Dayton.
      other equipment or         disposal of equipment
      media when they are        containing sensitive         We confirmed policy was being
      disposed of or             information and              used through the DPAS Database



                                                              52
CO    Control Objective        Control Activity              Test Procedure                           Results of Testing
No.
      transferred to another   software.                     Administrator.
      use.
                                                             Observed the destroyed hard drives
                                                             located at DISA-Dayton.

32    Audit trails are         DISA-Ogden, DISA-             DISA-Ogden, DISA-Dayton                  No relevant exceptions
      maintained at the        Dayton                        Confirmed through inquiry that           noted.
      application layer,       Operating System and          DISA-Ogden, DISA-Dayton, and
      operating system, and    database audit files are      DFAS-Columbus had implemented
      database layer.          periodically moved to an      audit trails at the application layer,
                               audit server located at       operating system, and database
                               Ogden. The audit files        layer. Confirmed through inquiry
                               are then transferred to       of the Assistant ISSO that audit
                               CD and stored on site for     trails were maintained and logs
                               one year. After one year,     were read. Confirmed through
                               the CDs are destroyed.        inquiry of the DPAS DBA and SA
                                                             that DISA-Ogden personnel
                               DFAS-Columbus                 routinely reviewed the logs.
                               The DPAS application
                               maintains a History           Confirmed through inquiry and
                               Inquiry of each asset that    observation that audit logs included
                               allows a user to view an      activities that might modify, bypass,
                               audit trail of transactions   or negate safeguards controlled by
                               for an asset.                 the system and the Audit trails were
                                                             stored on CDs in the DISA-Ogden
                                                             facility and protected against
                                                             unauthorized access, modification,
                                                             or deletion and were maintained for



                                                             53
CO    Control Objective         Control Activity              Test Procedure                         Results of Testing
No.
                                                              1 year and then destroyed.

                                                              DFAS-Columbus
                                                              Observed that the DPAS History
                                                              Inquiry captured transactional
                                                              activity of asset.



33    The contents of audit     DISA-Ogden, DISA-             DISA-Ogden, DISA-Dayton                No relevant exceptions
      trails are protected      Dayton                        Read the policy and procedures for     noted.
      against unauthorized      Only the IAM, the             protection of the audit trails and
      access, modification or   Assistant IAM, Database       noted that policy limiting access to
      deletion.                 Administrator and the         these audit trails was documented.
                                HP/UX System
                                Administrators had            Observed that only the IAM, the
                                access to the audit trails.   Assistant IAM, Database
                                                              Administrator and the HP/UX
                                                              Systems Administrators had access
                                                              to the audit trails. Attempted to
                                                              access the audit trails using a test
                                                              account.

34    Tools are available for   DISA-Ogden, DISA-             DISA-Ogden, DISA-Dayton                DISA-Ogden did not
      the review of audit       Dayton                        Confirmed through inquiry of           have a software tool
      records and for report    The Hewlett Packard           DISA-Ogden personnel that a tool       available to proactively
      generation from audit     Audit Trail tools can be      was not available to efficiently       monitor or review
      records.                  used to review and            review audit records.                  operating system audit



                                                              54
CO    Control Objective        Control Activity          Test Procedure                         Results of Testing
No.
                               report existing audit                                            trails because they did
                               records.                                                         not have the appropriate
                                                                                                software tool that would
                                                                                                allow them to efficiently
                                                                                                analyze large volumes of
                                                                                                audit log data.

35    Actual or attempted      DISA-Ogden, DISA-         DISA-Ogden, DISA-OKC                   No relevant exceptions
      unauthorized, unusual,   OKC                       Inquired with the System               noted.
      or sensitive network     Authorized and            Administrator to confirm that
      access is monitored.     unauthorized network      unauthorized, unusual, or sensitive
                               access is monitored       access was monitored.
                               through Transmission
                               Control Protocol (TCP)    Confirmed through inquiry and
                               Wrapper and Klaxon or     observation that DISA currently
                               Banshee. Host based       had network, firewall, and IDS logs.
                               IDS (Symantec             These logs were monitored and
                               Enterprise Security       maintained to include full audit
                               Manager (ESM)             trails including syslogs and were
                               and Intruder Alert) are   retained indefinitely.
                               installed on all Unix
                               servers.                  Confirmed through inquiry and
                                                         observation that authorized and
                                                         unauthorized network access
                                                         authorizations were appropriately
                                                         limited by user management, ACLs,
                                                         Firewalls, authentication, and
                                                         network monitoring.



                                                         55
CO    Control Objective          Control Activity           Test Procedure                         Results of Testing
No.

36    Suspicious or irregular    DISA-Ogden                 DISA-Ogden                             No relevant exceptions
      access activity is         When suspicious activity   Inquired with System                   noted.
      investigated and           is detected, an initial    Administrator to confirm that
      appropriate action         investigation is           suspicious or irregular access
      taken.                     performed. If deemed an    activity was investigated and
                                 actual event, the          appropriate actions were taken.
                                 Continental U.S.
                                 (CONUS) Regional           Obtained and read evidence that
                                 Computer Emergency         the investigations and corrective
                                 Response Team’s            actions had taken place.
                                 (RCERT) is notified and
                                 action is taken as
                                 required.



37    The acquisition,           DISA-Ogden                 DISA-Ogden                             No relevant exceptions
      development, and/or use    No mobile code is used     Inspected the DoD systems              noted.
      of mobile code to be       on the DPAS servers.       guidelines, standards, and
      deployed in DoD systems                               regulations concerning mobile
      meet current guidelines,   DISA Oklahoma City         codes.
      standards and              (DISA-OKC)
      regulations.               All IA devices have been   Inquired with the System
                                 approved by NSA or in      Administrator to confirm that the
                                 accordance with NSA        acquisition, development, and use of
                                 before acquiring and       mobile code to be deployed in DoD
                                 implementing.              systems met current guidelines,



                                                            56
CO    Control Objective           Control Activity          Test Procedure                        Results of Testing
No.
                                                            standards and regulations.

                                                            DISA-OKC
                                                            Confirmed through inquiry that
                                                            DISA-OKC verified NSA
                                                            evaluation or evaluation in
                                                            accordance with NSA approval for
                                                            all IA related products.

                                                             Read the National Information
                                                             Assurance Partnership (NIAP)
                                                             website and confirmed that the
                                                             website provided a list of approved
                                                             products that included the products
                                                             being used by DPAS.
38    All servers, workstations   DISA-Ogden, DISA-          DISA-Ogden, DISA-Dayton              No relevant exceptions
      and mobile computing        Dayton                     Observed that all servers,           noted.
      devices implement virus     All servers, workstations workstations and mobile computing
      protection that includes    and mobile computing       devices implemented virus
      a capability for            devices implement virus protection that included a
      automatic updates.          protection that includes a capability for automatic updates for
                                  capability for automatic all DPAS locations.
                                  updates.
                                                             Obtained print screen as evidence
                                                             that virus protection settings had
                                                             been configured.




                                                            57
CO    Control Objective           Control Activity            Test Procedure                        Results of Testing
No.
39    All Virtual Private         DISA-OKC                    DISA-OKC                              No relevant exceptions
      Network (VPN) traffic is    All network traffic,        Inquired with System                  noted.
      visible to network IDS.     including VPN traffic is    Administrators to confirm that all
                                  visible to the RealSecure   VPN traffic was visible to network
                                  IDS.                        IDS.

                                                            Read system network diagram and
                                                            corroborated with the SA to
                                                            confirm that VPN traffic was
                                                            included on the diagram.
40    At a minimum, medium-       DISA-OKC                  DISA-OKC                                No relevant exceptions
      robustness Commercial       All networks managed      Inquired with Key Personnel to          noted.
      Off-the-Shelf IA and IA-    by DISA-OKC have been confirm that medium-robustness
      enabled products are        encrypted in accordance Commercial off-the-Shelf IA and
      used to protect sensitive   with the National         IA-enabled products were used to
      information when the        Institute of Standard and protect sensitive information when
      information transits        Technology (NIST)         the information transited public
      public networks or the      cryptography standards. networks or the system handling
      system handling the                                   the information was accessible by
      information is accessible                             individuals who were not
      by individuals who are                                authorized to access the
      not authorized to access                              information on the system for each
      the information on the                                of the DPAS locations.
      system.
                                                              Using an automated tool,
                                                              performed passive network
                                                              monitoring of DPAS related
                                                              network traffic over a period of 10



                                                              58
CO    Control Objective           Control Activity             Test Procedure                         Results of Testing
No.
                                                               days to test for unencrypted traffic
                                                               transmitted over commercial or
                                                               wireless networks.
41    Unless there is an          DISA-Ogden                   DISA-Ogden                             No relevant exceptions
      overriding technical or     Unless there is an           Confirmed through observation          noted.
      operational problem,        overriding technical or      that workstation screen-lock
      workstation screen-lock     operational problem,         functionality was applied. If
      functionality is            workstation screen-lock      screen-locks were not being used,
      associated with each        functionality is             confirmed through inquiry the
      workstation.                associated with each         reason with the DPAS SA.
                                  workstation. When
                                  activated, the screen-lock
                                  function places an
                                  unclassified pattern onto
                                  the entire screen of the
                                  workstation, totally
                                  hiding what was
                                  previously visible on the
                                  screen.



42    Instant messaging traffic   DISA-OKC                     DISA-OKC                               No relevant exceptions
      to and from instant         Instant messaging is         Inquired with DISA-Ogden Staff to      noted.
      messaging clients that      prohibited at all DISA       confirm that no instant messaging
      are independently           sites.                       was used.
      configured by end users
      and that interact with a                                 Using an automated tool,



                                                               59
CO    Control Objective             Control Activity           Test Procedure                        Results of Testing
No.
      public service provider is                               performed passive network
      prohibited within DoD                                    monitoring of DPAS related
      information systems.                                     network traffic over a period of 10
                                                               days to test for instant messaging
                                                               traffic.
43    For Automated                 DISA-Ogden                 DISA-Ogden                            No relevant exceptions
      Information System            The DPAS hosting           Read the DPAS SSAA to confirm         noted.
      applications, a list of all   enclaves are documented    the DPAS enclave and backup
      (potential) hosting           in the DPAS SSAA.          enclave had been identified and
      enclaves is developed                                    documented.
      and maintained along
      with evidence of
      deployment planning
      and coordination and the
      exchange of connection
      rules and requirements.
44    Group authenticators for      DISA-Ogden                 DISA-Ogden                            We noted that 4 out of 45
      application or network        A SAAR Form 2875 is        Confirmed through inquiry if group    users tested did not have
      access may be used only       sent to Ogden to request   authenticators for application or     a System Access
      in conjunction with an        access to DPAS. Ogden      network access were used only in      Authorization Request
      individual authenticator.     then verifies required     conjunction with an individual        form on file.
                                    field contents and         authenticator. Confirmed through      According to DISA-
                                    signatures. Ogden          inquiry that if used in conjunction   Ogden personnel, the
                                    creates User IDs and       with individual authenticators        missing forms resulted
                                    passwords and retains      approval had been given by the        from the transfer of
                                    the Form 2875. User        DAA.                                  responsibility for the
                                    location’s DPAS Security                                         forms from DISA-
                                    Officer applies the user                                         Dayton to DISA-Ogden.



                                                               60
CO    Control Objective           Control Activity          Test Procedure                         Results of Testing
No.
                                  access permissions.       Inspected a haphazard sample of        DISA-Ogden believed
                                                            SAAR Form 2875 to confirm that         they were lost during the
                                                            each Form 2875 detailed the user’s     physical transfer of the
                                  DFAS-Columbus             justification for access, security     forms from DISA-
                                  Users must possess a      clearance level, and that each Form    Dayton to DISA-Ogden.
                                  valid User ID and         2875 was properly approved.            The DISA-Ogden
                                  password to gain access                                          Contract Technical
                                  to DPAS.                  DFAS-Columbus                          Requirement Analyst
                                                            Observed DPAS to confirm that          indicated to us that these
                                                            users must possess a valid Login       four users were
                                                            and Password to gain access to the     authorized to have access
                                                            system. Observed the entering of an    to the system based on
                                                            invalid User ID and password to        daily interaction
                                                            confirm that the system displayed      processing authorization
                                                            an error message to the user.          requests. Confirmed
                                                                                                   through inquiry of the IT
                                                                                                   Specialist, User Creation
                                                                                                   Division, and observed a
                                                                                                   sample of user access
                                                                                                   forms to that DPAS user
                                                                                                   accounts and necessary
                                                                                                   documentation was on
                                                                                                   file.



45    To help prevent             DISA-Ogden                DISA-Ogden                             No relevant exceptions
      inadvertent disclosure of   All contractors are       Obtained a listing of all contractor   noted.



                                                            61
CO    Control Objective         Control Activity            Test Procedure                        Results of Testing
No.
      controlled information,   identified by the           and foreign national email
      all contractors and       inclusion of the            addresses and display names for
      foreign nationals are     abbreviation “ctr” and      DISA Ogden and confirmed that
      identified by e-mail      all foreign nationals are   their proper identifications were
      addresses and display     identified by the           present.
      names.                    inclusion of their two
                                character country code.


46    Unclassified, sensitive   DISA-OKC                    DISA-OKC                              No relevant exceptions
      data transmitted          All networks managed        Inquired with Key Personnel to        noted.
      through a commercial or   by DISA-OKC have been       confirm that NIST cryptography
      wireless network are      encrypted in accordance     was used to protect information
      encrypted using NIST-     with NIST cryptography      when the information transited
      certified cryptography.   standards.                  public networks or the system
                                                            handling the information was
                                                            accessible by individuals who were
                                                            not authorized to access the
                                                            information on the system for each
                                                            of the DPAS locations.

                                                            Using an automated tool,
                                                            performed passive network
                                                            monitoring of DPAS related
                                                            network traffic over a period of 10
                                                            days and confirmed that no
                                                            unencrypted traffic was transmitted




                                                            62
CO    Control Objective           Control Activity            Test Procedure                       Results of Testing
No.
                                                              over commercial or wireless
                                                              networks.
47    Discretionary access        DISA-OKC                    DISA-OKC                             No relevant exceptions
      controls are a sufficient   ACLs have been              Confirmed through inquiry that a     noted.
      IA mechanism for            implemented for             controlled interface was used for
      connecting DoD              interconnections among      interconnections among the DoD
      information systems         DoD information             information systems that were
      operating at the same       systems. The ACLs are       connected to DPAS.
      classification, but with    controlled by DISA-
      different need-to-know      OKC.
      access rules.                                           Observed the existence of the ACLs
                                                              at DISA-Dayton by having a
                                                              network administrator display the
                                                              listing on his desktop.
48    Conformance testing         DISA-Ogden                  DISA-Ogden                           DISA-Ogden did not
      that includes periodic,     An unannounced ISS          Confirmed through inquiry that       perform periodic
      unannounced, in-depth       scan is performed           conformance testing was performed    network penetration
      monitoring and provides     monthly. Automated          that included periodic,              testing to identify
      for specific penetration    SRR scripts are run on      unannounced, in-depth monitoring     vulnerabilities with the
      testing to ensure           each server and reported    and provided for specific            DPAS architecture.
      compliance with all         to the Montgomery SRR       penetration testing to confirm
      vulnerability mitigation    database on a weekly        compliance with all vulnerability
      procedures is planned,      basis. Each system has      mitigation procedures was planned,
      scheduled, and              an SRR and an ISS scan      scheduled, and conducted.
      conducted.                  before it is connected to
                                  the network. The DISA       Confirmed through inquiry that
                                  Field Security Office       DISA-Ogden did not perform
                                  runs periodic SRRs and      periodic network penetration



                                                              63
CO    Control Objective           Control Activity             Test Procedure                         Results of Testing
No.
                                  ISS scans. DISA-Ogden        testing.
                                  conducts an operation
                                  facility environmental       Inspected ISS scans and obtained
                                  risk assessment.             evidence that the conformance and
                                                               penetration testing was being
                                                               completed.
49    All users are warned that DISA-Ogden; DISA-              DISA-Ogden; DISA-Dayton                No relevant exceptions
      they are entering a       Dayton                         Observed that workstations display     noted.
                                A warning banner               a DoD warning banner at logon.
      Government information notifies a user that they
      system.                   are entering a DoD
                                information system when
                                they logon.

50    Information and DoD         DISA-Ogden                   DISA-Ogden                             No relevant exceptions
      information systems that    Unless there is an           Confirmed through observation          noted.
      store, process, transmit,   overriding technical or      that workstation screen-lock
      or display data in any      operational problem,         functionality was applied.
      form or format that is      workstation screen-lock
      not approved for public     functionality is             Inquired with key personnel to
      release comply with all     associated with each         confirm that information in transit
      requirements in policy      workstation. When            through a network at the same
      and guidance documents.     activated, the screen-lock   classification level was encrypted.
                                  function places an           Using an automated tool,
                                  unclassified pattern onto    performed passive network
                                  the entire screen of the     monitoring of DPAS related
                                  workstation, totally         network traffic over a period of 10
                                  hiding what was              days to test for unencrypted traffic



                                                               64
CO    Control Objective            Control Activity            Test Procedure                         Results of Testing
No.
                                   previously visible on the   transmitted over commercial or
                                   screen.                     wireless networks.

                                   Information in transit      Observed that displays and printers
                                   through a network at the    used for classified information were
                                   same classification level   positioned to deter unauthorized
                                   is encrypted.               individuals from reading the
                                                               information at all of the locations.
                                   Work areas are behind
                                   monitored entrances and
                                   appropriate placement of
                                   cubicles and
                                   workstations is
                                   implemented.


51    Information in transit       DISA-Ogden                  DISA-Ogden                             No relevant exceptions
      through a network at the     Information in transit      Inquired with key personnel to         noted.
      same classification level,   through a network at the    confirm that information in transit
      but which must be            same classification level   through a network at the same
      separated for need-to-       is encrypted.               classification level was encrypted
      know reasons, is                                         with NIST-certified cryptography.
      encrypted, at a
      minimum, with NIST-                                      Using an automated tool,
      certified cryptography.                                  performed passive network
                                                               monitoring of DPAS related
                                                               network traffic over a period of 10
                                                               days to test for unencrypted



                                                               65
CO    Control Objective          Control Activity          Test Procedure                         Results of Testing
No.
                                                           network traffic.
52    Connections between        DISA-Ogden                DISA-Ogden                             No relevant exceptions
      DoD enclaves and the       Connections between       Inspected the DISA-Ogden system        noted.
      Internet or other public   DoD enclaves and the      architecture to confirm that
      or commercial wide area    Internet are configured   connections between DoD enclaves
      networks require a         with a Demilitarized      and the Internet were configured
      Demilitarized Zone.        Zone.                     with a Demilitarized Zone.

53    Boundary defense           DISA-OKC, DISA-           DISA-OKC, DISA-Dayton                  No relevant exceptions
      mechanisms to include      Dayton                    Inspected the DISA-OKC system          noted.
      firewalls and network      DISA-Ogden and DISA-      architecture to confirm that
      IDS                        Dayton have boundary      boundary defense mechanisms to
                                 defense mechanisms in     include firewalls and network IDS
       are deployed at the       place that include        were deployed at the enclave
      enclave boundary.          firewalls and IDSs.       boundary.

                                                           Read system network diagram and
                                                           corroborated with the System
                                                           Administrator to confirm that
                                                           defense mechanisms were
                                                           employed.

                                                           Observed the existence of firewalls
                                                           and IDSs.

54    Devices that display or    DISA-Ogden                DISA-Ogden                             No relevant exceptions
      output classified or       Work areas are behind     Observed that displays and printers    noted.
      sensitive information in   monitored entrances and   were used for classified information



                                                           66
CO    Control Objective          Control Activity           Test Procedure                          Results of Testing
No.
      human-readable form        appropriate placement of   and confirmed that these items
      are positioned to deter    cubicles and               were positioned to deter
      unauthorized individuals   workstations is            unauthorized individuals from
      from reading the           implemented.               reading the information at all of the
      information.                                          locations.



55    Individuals requiring      DISA-Ogden                 DISA-Ogden                              We noted that 4 out of 45
      access to sensitive        A Form 2875 is required    Read the policies and procedures        users tested did not have
      information are            to be completed by         for gaining access to sensitive         a System Access
      processed for access       anyone requesting access   information.                            Authorization Request
      authorization in           to DPAS. The form must                                             form on file.
      accordance with DoD        be completed correctly     Inspected a haphazard sample of         According to DISA-
      personnel security         and                        SAAR Form 2875s to confirm that         Ogden personnel, these
      policies.                                             each Form 2875 detailed the user’s      missing forms resulted
                                 have all the required      justification for access, security      from the transfer of
                                 signatures.                clearance level, and that each Form     responsibility for the
                                                            2875 was properly approved.             forms from DISA-
                                                                                                    Dayton to DISA-Ogden.
                                                                                                    DISA-Ogden believed
                                                                                                    they were lost during the
                                                                                                    physical transfer of the
                                                                                                    forms from DISA-
                                                                                                    Dayton to DISA-Ogden.
                                                                                                    The DISA-Ogden
                                                                                                    Contract Technical
                                                                                                    Requirement Analyst



                                                            67
CO    Control Objective        Control Activity           Test Procedure                         Results of Testing
No.
                                                                                                 indicated to us that these
                                                                                                 four users were
                                                                                                 authorized to have access
                                                                                                 to the system based on
                                                                                                 daily interaction
                                                                                                 processing authorization
                                                                                                 requests. Confirmed
                                                                                                 through inquiry of the IT
                                                                                                 Specialist, User Creation
                                                                                                 Division, and observed a
                                                                                                 sample of user access
                                                                                                 forms to that DPAS user
                                                                                                 accounts and necessary
                                                                                                 documentation was on
                                                                                                 file.

56    DoD information          DISA-Dayton                DISA-Dayton                          No relevant exceptions
      systems comply with      All port, protocols, and   Confirmed through the                noted.
      DoD ports, protocols,    services used by DPAS      performance of network monitoring
      and services guidance.   are in compliance with     that DoD information systems
                               DoD standards              complied with DoD ports, protocols,
                               documented in the Unix     and services guidance, including all
                               STIG.                      ports, protocols, and services
                                                          whether currently active or planned
                                                          for use.

                                                          Confirmed that all ports, protocols,
                                                          and services were identified and



                                                          68
CO    Control Objective         Control Activity            Test Procedure                        Results of Testing
No.
                                                            registered.

                                                            Read the documentation of DPAS
                                                            being successfully STIGed.
57    Binary or machine         DISA-Ogden                  DISA-Ogden                            No relevant exceptions
      executable public         DPAS does not have          Read a listing of software products   noted.
      domain software           binary or machine           used at DISA-Ogden to confirm
      products and other        executable public           DPAS did not have binary or
      software products with    domain software             machine executable public domain
      limited or no warranty    installed.                  software installed.
      are not used in DoD
      information systems.
                                                            Read software inventory listing and
                                                            conducted inquiry with the
                                                            Program Manager for
                                                            Configuration Management to
                                                            confirm that binary or machine
                                                            executable public domain software
                                                            products and other software
                                                            products with limited or no
                                                            warranty were not installed on
                                                            DPAS.
      Application Software Development and Change Control
58    A system development       NAVSISA                    NAVSISA                              No relevant exceptions
      life cycle methodology     A Change Management        Read the Change Management Plan noted.
      (SDLC) has been            Plan has been              to confirm that it had been updated.
      implemented and            implemented,
      documented.                documented, and



                                                            69
CO    Control Objective        Control Activity            Test Procedure                        Results of Testing
No.
                               updated. NAVSISA
                               follows a documented
                               Software Configuration
                               Management Plan for all
                               system maintenance
                               activity.
59    Authorizations for       NAVSISA                     NAVSISA                               No relevant exceptions
      software modifications   Using the DPAS              Selected the full population of 48    noted.
      are documented and       Software Configuration      code and database modifications
      maintained.              Management Plan as the      that occurred during the seven
                               overarching guidance, all   month period under review
                               System Change Requests      (September 2004 to March 2005)
                               (SCRs) are approved by      from the DPAS production code
                               the DPAS Program            library (UNIX directory) and
                               Manager. Specific           traced each modification to an
                               changes that are to occur   approved SCR or PTR and
                               as a result of SCRs are     confirmed through inspection that
                               documented in the           it had been authorized by the
                               System Subsystem            Program Manager or Software
                               Specification that is       Director and traced each SCR or
                               developed by NAVSISA        PTR identified above to the Release
                               and provided to the         Authorization Report to confirm
                               Software Director for       that the CIs had been approved by
                               approval. Changes           the Software Director.
                               relating to PTRs are also
                               approved by the             Inquired of key NAVSISA
                               Software Director.          personnel and DPAS users to
                               Configured Items (CIs)      confirm the results of the testing



                                                           70
CO    Control Objective          Control Activity            Test Procedure                      Results of Testing
No.
                                 related to SCRs and         above.
                                 PTRs that are identified
                                 for a release are tracked
                                 at NAVSISA using
                                 CMTS. CMTS provides
                                 visibility at the
                                 individual CI level as to
                                 specific changes that are
                                 being prepared for any
                                 given release. Prior to a
                                 release, a Release
                                 Authorization Report is
                                 prepared that identifies
                                 the CIs that are
                                 contained in the release.
                                 The DPAS Software
                                 Director and a
                                 representative of
                                 NAVSISA sign this
                                 report attesting to the
                                 CIs that are to be
                                 released to production.

60    Use of public domain       DFAS-Columbus               DFAS-Columbus                       No relevant exceptions
      and personal software is   Public domain and           Read DPAS SSAA to confirm that      noted.
      restricted.                personal software must      personal software was restricted.
                                 be approved for use.
                                                             Read inventory listing to confirm



                                                             71
CO    Control Objective          Control Activity              Test Procedure                       Results of Testing
No.
                                                               that binary or machine executable
                                                               public domain software products
                                                               and other software products with
                                                               limited or no warranty were not
                                                               installed on DPAS.

61    Changes are controlled     NAVSISA                       NAVSISA                              No relevant exceptions
      as programs progress       Test plan standards have      Using the same sample selected for   noted.
      through testing to final   been developed for all        control objective 59, confirmed that
      approval.                  levels of testing that        the change followed the appropriate
                                 define responsibilities for   test and migration process by
                                 each party including          inspecting the following for
                                 users, system analysts,       completeness and authorization:
                                 programmers, auditors,              o System Test Plan;
                                 quality assurance, and              o Detailed system
                                 library control.                       specifications; and
                                                                     o Unit, System and
                                 Detailed system                        Acceptance testing results.
                                 specifications are
                                 prepared by the               Inquired of key NAVSISA
                                 programmer and                personnel and DPAS users to
                                 reviewed by a                 confirm the results of the testing
                                 programming                   above.
                                 supervisor.


                                 Software changes are
                                 documented so that they



                                                               72
CO    Control Objective   Control Activity              Test Procedure   Results of Testing
No.
                          can be traced from
                          authorization to the final
                          approved code and they
                          facilitate “trace-back” of
                          code to design
                          specifications and
                          functional requirements
                          by system testers.

                          Unit, integration, and
                          system testing are
                          performed and approved
                          1) in accordance with the
                          test plan and, 2) applying
                          a sufficient range of valid
                          and invalid conditions.

                          A comprehensive set of
                          test transactions and
                          data is developed that
                          represents the various
                          activities and conditions
                          that will be encountered
                          in processing.


                          Live data are not used in
                          the testing of program



                                                        73
CO    Control Objective        Control Activity            Test Procedure                       Results of Testing
No.
                               changes except to build
                               test data files.

                               Test results are reviewed
                               and documented.

                               Program changes are
                               moved into production
                               only upon documented
                               approval from users and
                               system development
                               management.

                               Documentation is
                               updated for software,
                               hardware, operating
                               personnel, and system
                               users when a new or
                               modified system is
                               implemented.


62    Emergency changes are    NAVSISA                     NAVSISA                              No relevant exceptions
      promptly tested and      Using the DPAS              Selected the full population of 48   noted.
      approved before being    Software Configuration      code and database modifications
      moved into production.   Management Plan as the      that occurred during the seven
                               overarching guidance, all   month period under review
                               SCRs are approved by        (September 2004 to March 2005)



                                                           74
CO    Control Objective   Control Activity            Test Procedure                        Results of Testing
No.
                          the DPAS Program            from the DPAS production code
                          Manager. Specific           library (UNIX directory) and
                          changes that are to occur   traced each modification to an
                          as a result of SCRs are     approved SCR or PTR and
                          documented in the           confirmed through inspection that
                          System Subsystem            it had been authorized by the
                          Specification that is       Program Manager or Software
                          developed by NAVSISA        Director and traced each SCR or
                          and provided to the         PTR identified above to the Release
                          Software Director for       Authorization Report to confirm
                          approval. Changes           that the CIs had been approved by
                          relating to PTRs are also   the Software Director.
                          approved by the
                          Software Director. CIs      Inquired of key NAVSISA
                          related to SCRs and         personnel and DPAS users to
                          PTRs that are identified    confirm the results of the testing
                          for a release are tracked   above.
                          at NAVSISA using the
                          CMTS. CMTS provides         Using the same sample selected
                          visibility at the           above, confirmed that the change
                          individual CI level as to   followed the appropriate test and
                          specific changes that are   migration process by inspecting the
                          being prepared for any      following for completeness and
                          given release. Prior to     authorization:
                          release, a Release                o System Test Plan (STP);
                          Authorization Report is           o Detailed system
                          prepared that identifies            specifications; and
                          the CIs that are                  o Unit, System and



                                                      75
CO    Control Objective   Control Activity              Test Procedure                        Results of Testing
No.
                          contained in the release.             Acceptance testing results.
                          The DPAS Software
                          Director and a
                          representative of             Inquired of key NAVSISA
                          NAVSISA signs this            personnel and DPAS users to
                          report attesting to the       confirm the results of the testing
                          CIs that are to be            above.
                          released to production.


                          Test plan standards have
                          been developed for all
                          levels of testing that
                          define responsibilities for
                          each party including
                          users, system analysts,
                          programmers, auditors,
                          quality assurance, and
                          library control.

                          Detailed system
                          specifications are
                          prepared by the
                          programmer and
                          reviewed by a
                          programming
                          supervisor.




                                                        76
CO    Control Objective   Control Activity              Test Procedure   Results of Testing
No.
                          Software changes are
                          documented so that they
                          can be traced from
                          authorization to the final
                          approved code and they
                          facilitate “trace-back” of
                          code to design
                          specifications and
                          functional requirements
                          by system testers.


                          Unit, integration, and
                          system testing are
                          performed and approved
                          1) in accordance with the
                          test plan and, 2) applying
                          a sufficient range of valid
                          and invalid conditions.

                          A comprehensive set of
                          test transactions and
                          data is developed that
                          represents the various
                          activities and conditions
                          that will be encountered
                          in processing.




                                                        77
CO    Control Objective        Control Activity              Test Procedure                       Results of Testing
No.
                               Live data are not used in
                               testing of program
                               changes except to build
                               test data files.

                               Test results are reviewed
                               and documented.

                               Program changes are
                               moved into production
                               only on documented
                               approval from users and
                               system development
                               management.

                               Documentation is
                               updated for software,
                               hardware, operating
                               personnel, and system
                               users when a new or
                               modified system is
                               implemented.
63    Distribution and         NAVSISA                       NAVSISA                              No relevant exceptions
      implementation of new    A Release Authorization       Using the same sample selected for   noted.
      or revised software is   Report is prepared that       control objective 59, confirmed that
      controlled.              identifies the CIs that are   the change followed the appropriate
                               contained in the release      distribution process by inspecting
                                                             the Release Authorization Report



                                                             78
CO    Control Objective            Control Activity           Test Procedure                         Results of Testing
No.
                                   and approves the release   for completeness and authorization.
                                   for distribution.
                                                              Inquired of key NAVSISA
                                                              personnel and DPAS users to
                                                              confirm the results of the testing
                                                              above.
64    Programs are labeled         NAVSISA                    NAVSISA                                No relevant exceptions
      and inventoried.             Major release CIs for      Using the same sample selected for     noted.
                                   CCB approved SCR’s         control objective 59, confirmed that
                                   are entered into CMTS      the CI that was changed had been
                                   using the impact cost      approved, labeled, assigned an ID,
                                   analysis forms for each    and inventoried in CMTS.
                                   SCR. All additions,
                                   changes, or deletions to   Inquired of key NAVSISA
                                   the production baseline    personnel and DPAS users to
                                   SCR are submitted to the   confirm the results of the testing
                                   Change Management for      above.
                                   approval. All CIs are
                                   assigned identification
                                   numbers.
65    Access to program            NAVSISA                    NAVSISA                                No relevant exceptions
      libraries is restricted to   Authorized individuals     Observed the DPAS Librarian to         noted.
      appropriate personnel.       are restricted to only     demonstrate how the development
                                   specifically assigned      and production libraries were
                                   libraries by the DPAS      controlled.
                                   Librarian.
                                                              Inspected the ACLs for the
                                                              Production and Development



                                                              79
CO    Control Objective           Control Activity           Test Procedure                          Results of Testing
No.
                                                             libraries (directories) to confirm
                                                             that only authorized personnel had
                                                             access.

                                                             Observed a system developer
                                                             attempt to update the production
                                                             library to confirm that access to the
                                                             production library was restricted.

                                                             Inquired of key NAVSISA
                                                             personnel and DPAS users to
                                                             confirm the results of the testing
                                                             above.

66    Acquisition or              NAVSISA                    NAVSISA                                 No relevant exceptions
      outsourcing of IT           The contract agreement     Inspected the General Dynamics          noted.
      services explicitly         (GS-07T-00-BGD-0063)       contract agreement to confirm if it
      addresses Government,       and Statement of Work      expressly addressed Government,
      service provider, and end   with General Dynamics,     service provider and end-user IA
      user IA roles and           who performs code          roles and responsibilities.
      responsibilities.           development services for
                                  NAVSISA in support of      Inquired of key NAVSISA
                                  DPAS, expressly            personnel and DPAS users to
                                  addresses task, required   confirm the results of the testing
                                  skill sets, security       above.
                                  investigations and
                                  nondisclosure
                                  agreements for the



                                                             80
CO    Control Objective            Control Activity           Test Procedure                       Results of Testing
No.
                                   support of DPAS
                                   services.
67    The acquisition of all IA-   DISA-OKC                   DISA-OKC                             No relevant exceptions
      and IA-enabled GOTS          All IA devices have been   Confirmed through inquiry that       noted.
      IT products is limited to    approved by NSA or in      DISA-OKC verified that all IA
      products that have been      accordance with NSA        related products were approved by
      evaluated by the NSA or      approval processes         NSA or in
      in accordance with NSA-      before acquiring and
      approved processes.          implementing.              accordance with NSA approved
                                                              processes.

                                                           Inspected the NIAP website and
                                                           confirmed that the website provided
                                                           a list of approved products
                                                           including the products used by
                                                           DPAS.
68    Movement of programs     NAVSISA                     NAVSISA                              No relevant exceptions
      and data among libraries A Release Authorization Using the same sample selected for       noted.
      is controlled.           Report is prepared that     control objective 59, confirmed that
                               identifies the CIs that are the changes selected for testing
                               contained in the release    followed the appropriate
                               and approves the release distribution process by inspecting
                               for distribution.           the Release Authorization Report
                                                           for completeness and authorization.

                                                              Inquired of key NAVSISA
                                                              personnel and DPAS users to
                                                              confirm the results of the testing



                                                              81
CO    Control Objective            Control Activity            Test Procedure                           Results of Testing
No.
                                                               above.
69    Software quality             DFAS-Columbus               DFAS-Columbus                            No relevant exceptions
      requirements and             The DPAS Security           Inquired of DPAS Security                noted.
      validation methods that      Specialist at DFAS-         Specialist at DFAS-Columbus as to
      are focused on the           Columbus receives           his roles and responsibilities for the
      minimization of flawed       DPAS Release Notes          release of security-related changes
      or malformed software        from NAVSISA-               included in DPAS Releases.
      that can negatively          Mechanicsburg. The
      impact integrity or          DPAS Security Specialist    Observed release notes for all
      availability, such as        then reviews the DPAS       major DPAS production releases
      buffer overruns, are         Release Notes for           that occurred during the audit
      specified for all software   changes related to          period at NAVSISA-
      development initiatives.     security. The Testing       Mechanicsburg.
                                   Director at NAVSISA-
                                   Mechanicsburg develops      NAVSISA
                                   test plans for testing      Using the same sample selected for
                                   security-related changes.   control objective 59, confirmed that
                                   The DPAS Security           the change followed the appropriate
                                   Specialist then reviews     test and migration process by
                                   these test plans and        inspecting the following for
                                   assists in the testing of   completeness and authorization:
                                   security-related changes          o System Test Plan;
                                   included in the DPAS              o Detailed system
                                   Release.                             specifications; and
                                                                     o Unit, System and
                                   NAVSISA                              Acceptance testing results.
                                   Test plan standards have
                                   been developed for all      Inquired of key NAVSISA



                                                               82
CO    Control Objective          Control Activity            Test Procedure                          Results of Testing
No.
                                 levels of testing that      personnel and DPAS users to
                                 define responsibilities for confirm the results of the testing
                                 each party (e.g., users,    above.
                                 system analysts,
                                 programmers, auditors,
                                 quality assurance, and
                                 library control).

      System Software Controls
70    Access authorizations      DISA-OKC,                   DISA-OKC                                No relevant exceptions
      are appropriately          DISA-Ogden                  Read the policies and procedures        noted.
      limited.                   ACLs, user management       for restricting access to the systems
                                 controls, firewalls, IDS,   software to confirm that they were
                                 and authentications are     up-to-date.
                                 used to control network
                                 access.                     DISA-Ogden
                                                             Obtained a list from the
                                 Users must have the         Discretionary Access Control of all
                                 same level of access of     individuals who had direct access to
                                 the system they are         the system software and selected a
                                 trying to access, have an   haphazard sample of Ogden users
                                 established username        with direct access. For each user
                                 and password, and be        selected, confirmed with key
                                 allowed through the         management personnel that these
                                 router and firewall.        users were authorized to have this
                                                             access.




                                                             83
CO    Control Objective          Control Activity            Test Procedure                       Results of Testing
No.
71    All access paths have      DISA-OKC                    DISA-OKC                             No relevant exceptions
      been identified and        The following are used to   Through observation and inquiry,     noted.
      controls implemented to    provide                     confirmed that telecommunications
      prevent or detect access   telecommunication           controls were properly
      for all paths.             controls:                   implemented.
                                     • ACLs
                                     • IDS                   Obtained policy and procedures
                                     • Firewalls             relating to DoD information
                                     • Encryption, and       systems access controls to confirm
                                     • Network               they existed.
                                        monitoring.
                                                             Through observation and inquiry,
                                                             confirmed that a controlled
                                 ACLs have been              interface was used for
                                 implemented for             interconnections among the DoD
                                 interconnections among      information systems that were
                                 DoD information             connected to DPAS.
                                 systems. The ACLs are
                                 controlled by DISA-         Observed the existence of ACL,
                                 OKC.                        IDS, Firewalls, Encryption, and
                                                             Network monitoring.

                                                             Reviewed output on computer
                                                             monitor and conducted inquiry of
                                                             IT Specialist.

72    Policies and techniques    DISA-Ogden                  DISA-Ogden                           Standard Operating
      have been implemented      The system utilities that   Inquired with key Ogden personnel    Procedures and DISA-



                                                             84
CO    Control Objective          Control Activity             Test Procedure                         Results of Testing
No.
      for using and monitoring   support DPAS are             to confirm how root access was         Ogden SSAA were not
      the use of system          limited to root access       administered. Obtained the list of     updated to reflect
      utilities.                 only.                        individuals with root access and       current processes and
                                                              conferred with Management that         procedures.
                                 Policies and procedures      access was appropriate and that the
                                 for using and monitoring     use of accounts with root access was   In addition, DISA-Ogden
                                 the use of system            logged.                                did not proactively
                                 software utilities exist                                            monitor or review audit
                                 and are up-to-date.          Read the policies and procedures       trails since it did not
                                                              for the monitoring of systems          have the tools to perform
                                 Responsibilities for using   software to confirm that they          such monitoring.
                                 sensitive system utilities   existed and were current.
                                 have been clearly defined                                           During our fieldwork, we
                                 and are understood by      Read a sample of the audit logs          noted that standard
                                 systems programmers.       from the DPAS servers to confirm         operating procedures
                                                            that key Ogden personnel reviewed        had
                                 Responsibilities for       the logs on a regular basis and that
                                 monitoring use are         any issues noted were documented         been subsequently
                                 defined and understood     and researched.                          documented.
                                 by technical
                                 management.

                                 The use of sensitive
                                 system utilities is logged
                                 using access control
                                 software reports or job
                                 accounting data.
73    System software changes    DISA-Dayton                  DISA-Dayton                            No relevant exceptions



                                                              85
CO    Control Objective         Control Activity            Test Procedure                         Results of Testing
No.
      are authorized, tested,   DPAS system software        Obtained and read the change           noted.
      and approved before       patches and upgrades        management policies and
      implementation.           are applied in              procedures for systems software to
                                accordance with             confirm that they existed and were
                                Information Assurance       current.
                                Vulnerability Alert
                                bulletins or DISA-Ogden     Obtained a list of all system
                                policy unless otherwise     software purchases and
                                noted in the Service-       modifications from September 1,
                                Level Agreement (SLA).      2004 through April 30, 2005 and
                                                            tested the full population of
                                Current policies and        modifications. For each
                                procedures exist for        modification, obtained the change
                                identifying, selecting,     request document for each
                                installing, and modifying   modification and confirmed that
                                system software.            each modification was approved by
                                                            key Ogden personnel prior to
                                                            implementation and that each
                                New system software         modification was tested and the test
                                versions or products and
                                modifications to existing   results were approved prior to the
                                system software receive     modification being implemented.
                                proper authorization and
                                are supported by a          Obtained a list of all emergency
                                change request              changes implemented from
                                document.                   September 1, 2004 through April
                                                            30, 2005 and confirmed through
                                New system software         inspection that these changes



                                                            86
CO    Control Objective        Control Activity              Test Procedure                      Results of Testing
No.
                               versions or products and      followed a change management
                               modifications to existing     process and were tested and
                               system software are           approved prior to implementation.
                               tested and the test results
                               are approved before
                               implementation.
                               All emergency changes
                               follow the change
                               management process and
                               must be approved prior
                               to implementation.
74    Installation of system   DISA-Ogden                    DISA-Ogden                       DISA-Ogden did not
      software is documented   DPAS system software          Confirmed through inquiry that   have a software tool
      and reviewed.            and patch installations       changes to the HP/UX servers wereavailable to proactively
                               are tracked through           managed and logged in the CMS.   monitor or review
                               HP/UX software utilities.                                      operating system audit
                                                          Using the sample of system software trails because they did
                               Installation of system     modification/implementations        not have the appropriate
                               software is scheduled to   selected for control objective 73,  tool that would allow
                               minimize the impact on     confirmed that users were notified  them to efficiently
                               data processing and        of the modification prior to        analyze large volumes of
                               advance notice is given to implementation.                     audit log data to identify
                               system users.                                                  potential high risk and
                                                          Obtained the system software audit unusual system activity.
                               Migration of tested and    logs that showed each change
                               approved system            selected above being implemented.
                               software to production is Confirmed with key Ogden
                               performed by an            personnel that the logs were



                                                             87
CO    Control Objective           Control Activity             Test Procedure                        Results of Testing
No.
                                  independent source.          reviewed.

                                  Installation of all system   Obtained the list of personnel with
                                  software is logged to        access to migrate system software
                                  establish an audit trail     modifications from the test
                                  and reviewed by              environment to the production
                                  management.                  environment and confirmed with
                                  All system software is       Management that an appropriate
                                  current and has current      individual migrated each of the
                                  and complete                 selected modifications.
                                  documentation.
                                                               Observed the presence of HP/UX
                                                               software utilities on the DPAS
                                                               servers.

                                                               Read the Executive Software
                                                               Inventory for DPAS to confirm that
                                                               it was current.


75    Good engineering            DISA-OKC                     DISA-OKC                              No relevant exceptions
      practices with regards to   Integrity mechanisms         Confirmed through inquiry that a      noted.
      the integrity mechanisms    are used for                 controlled interface was used for
      of Commercial off-the-      interconnections among       interconnections among the DoD
      Shelf, GOTS and custom      the DoD information          information systems that were
      developed solutions are     systems connecting to        connected to DPAS.
      implemented for             DPAS for incoming and
      incoming and outgoing       outgoing files.              Observed the existence of ACL,



                                                               88
CO    Control Objective          Control Activity        Test Procedure                         Results of Testing
No.
      files.                                             IDS, Firewalls, Encryption, and
                                                         Network monitoring.


                                                         DISA-Dayton
                                                         Using an automated tool,
                                                         performed passive network
                                                         monitoring of DPAS related
                                                         network traffic over a period of 10
                                                         days to confirm that no
                                                         unencrypted traffic was transmitted
                                                         over commercial or wireless
                                                         networks.

                                                         Confirmed through corroborative
                                                         inquiry that interfaced inputs were
                                                         automatically validated by the
                                                         system for missing information,
                                                         format, consistency and
                                                         reasonableness.


                                                         Observed system batch files of
                                                         interfaced inputs for control totals
                                                         and line counts.
      Segregation of Duties
76    Incompatible duties have   DISA-Ogden              DISA-Ogden                             No relevant exceptions
      been identified and        System Administrator,   Read the DISA-Ogden                    noted.



                                                         89
CO    Control Objective          Control Activity            Test Procedure                          Results of Testing
No.
      policies implemented to    System Security, IAO        organizational chart and read the
      segregate these duties.    and                         job descriptions for the positions at
                                                             DISA-Ogden in relation to DPAS to
                                 IAM duties are all          confirm that there was an
                                 separated at SMC            appropriate segregation of duties
                                 Ogden.                      and that incompatible duties did
                                                             not exist.

77    System management job      DISA-Ogden                  DISA-Ogden                              No relevant exceptions
      descriptions have been     Job descriptions of key     Read the job descriptions for key       noted.
      documented.                DPAS system support         system support personnel at DISA-
                                 personnel are               Ogden to confirm they existed.
                                 documented.
78    System management          DISA-Ogden                  DISA-Ogden                              No relevant exceptions
      employees understand       DISA-Ogden employees        Selected a sample of employees and      noted.
      their duties and           understand their duties     confirmed through inquiry that
      responsibilities.          and responsibilities in     they understood their duties and
                                 accordance with DISA        responsibilities. Observed
                                 policies and procedures.    documentation to confirm that
                                                             employees had signed position
                                                             descriptions.
79    Management reviews         DFAS-Columbus               DFAS-Columbus                           No relevant exceptions
      effectiveness of control   Management                  Read the DPAS Systems Security          noted.
      techniques.                periodically assesses the   Policy, Security Requirements, and
                                 appropriateness and         Certification Test and Evaluation
                                 effectiveness of control    Plan and Procedures to confirm
                                 techniques by updating      that each had been updated.
                                 the Systems Security



                                                             90
CO    Control Objective           Control Activity           Test Procedure                         Results of Testing
No.
                              Policy, Security
                              Requirements, and
                              Certification Test and
                              Evaluation Plan and
                              Procedures.
80    Formal procedures guide DISA-Ogden                     DISA-Ogden                             Standard operating
      system management       Formal procedures are          Read Standard Operating                procedures and DISA-
      personnel in performing documented and                 Procedures used by DISA-Ogden          Ogden SSAA were not
      their duties.           accessible to guide            personnel for performance of their     updated to reflect
                              personnel in performing        job duties in respect to DPAS.         existing processes and
                              their duties.                                                         procedures. During our
                                                                                                    fieldwork, we noted that
                                                                                                    standard operating
                                                                                                    procedures had been
                                                                                                    subsequently
                                                                                                    documented.

81    Access procedures           DFAS-Columbus              DFAS-Columbus                          No relevant exceptions
      enforce the principles of   User Access profiles are   Read the access control policies and   noted.
      separation of duties and    created for DPAS users     procedures for DISA-Ogden for
      “least privilege.”          to limit access to DPAS    compliance with the principles of
                                  and enforce a separation   separation of duties and “least
                                  of duties.                 privilege.”



82    Active supervision and      DISA-Ogden                 DISA-Ogden                             No relevant exceptions
      review are provided for     A documented               Read the DISA-Ogden                    noted.



                                                             91
CO    Control Objective           Control Activity             Test Procedure                         Results of Testing
No.
      all system management       management structure         organizational chart to confirm that
      personnel.                  with supervision has         a management structure was
                                  been established.            established.

                                                               Read position descriptions of DPAS
                                                               key support personnel to confirm
                                                               supervisory responsibilities were
                                                               established.
      Application Controls
1     Access controls have been   DFAS-Columbus                DFAS-Columbus                          No relevant exceptions
      established to enforce      The system design            Observed the DPAS system to            noted.
      segregation of duties.      permits only authorized      confirm that its design supported
                                  users to enter, modify, or   segregating duties.
                                  otherwise alter property
                                  records.                     Observed DPAS to confirm that
                                                               users must possess a valid Login
                                  The system incorporates      and Password to gain access to the
                                  adequate security            system. Observed the entering of an
                                  features that prevent        invalid User ID and password to
                                  unauthorized access to       confirm that the system displayed
                                  the property system by       an error message to the user.
                                  unauthorized individuals
                                  to provide access control. Observed the DPAS system to
                                                             confirm that each user account was
                                  The system’s design can assigned a Security Profile that
                                  be observed and tested in restricted access by module,
                                  a production replica.      program, UIC, and Hand Receipt.
2     Controls provide            DFAS-Columbus              DFAS-Columbus                            No relevant exceptions


                                                               92
CO    Control Objective            Control Activity             Test Procedure                         Results of Testing
No.
      reasonable assurance that    The system contains          Confirmed through observation          noted.
      all asset acquisitions are   edits and validations that   that the DPAS system contained
      recorded.                    assist the user in           edits and validations that assisted
                                   adequately recording         the user in adequately entering
                                   beginning balances,          beginning balances, acquisitions,
                                   acquisitions, and            and withdrawals through required
                                   withdrawals, and it          or restricted fields. Through re-
                                   calculates ending            performance, attempted to proceed
                                   balances expressed in        beyond window that contained
                                   values and physical          fields without entry to confirm that
                                   units, except for heritage   system prompts user with warning
                                   assets and stewardship       message.
                                   land for which all end of
                                   period balances are
                                   expressed in physical
                                   units only.



3     Controls provide             DFAS-Columbus                DFAS-Columbus                       No relevant exceptions
      reasonable assurance that    The system contains          Observed fields in DPAS to          noted.
      all asset disposals are      edits and validations that   confirm that they provided the user
      recorded.                    assist the user in           the capability of indicating the
                                   adequately identifying       asset for disposal or retirement.
                                   property as or as held
                                   for disposal or              Observed data fields in DPAS to
                                   retirement.                  confirm that data entry into those
                                                                data fields was required and



                                                                93
CO    Control Objective            Control Activity            Test Procedure                          Results of Testing
No.
                                                               restricted to specified data values.
                                                               Through re-performance,
                                                               attempted to proceed beyond a
                                                               window that contained fields
                                                               without entry to confirm that the
                                                               system prompts users with warning
                                                               messages.
4     Controls provide             DFAS-Columbus               DFAS-Columbus                           DPAS does not calculate
      reasonable assurance that    The system provides         Confirmed through observation of        the annual amortization
      all asset acquisitions are   users the capability of     the DPAS system that it had been        of estimated mat, clean-
      recorded in accordance       capturing and               designed to enforce the DoD             up costs, and the
      with DoD and                 categorizing capital        Financial Management Regulation         unamortized balance.
                                   assets according to         (FMR) Volume 4, Chapter 6.
      Federal entity’s policy as   capitalization thresholds
      applicable.                  in compliance with          Observed the DPAS system's
                                   federal regulation.         capitalization key fields to confirm
                                                               that it provided the user the
                                                               capability of categorizing the asset
                                                               as a capital asset (value over
                                                               $100,000).

                                                               Observed the DPAS system's
                                                               validation messages that controlled
                                                               the user's classification of an asset
                                                               as a capital asset.

                                                               Observed that the DPAS system
                                                               calculated the annual amortization



                                                               94
CO    Control Objective           Control Activity             Test Procedure                         Results of Testing
No.
                                                               of estimated material, clean-up
                                                               costs, and the unamortized balance.

5     Controls provide            DFAS-Columbus                DFAS-Columbus                          No relevant exceptions
      reasonable assurance that   The system contains          Observed the system to confirm         noted.
      depreciation charges are    edits and validations that   that it recorded depreciation
      valid.                      assist the user in           charges for assets that were subject
                                  accurately recording         to depreciation.
                                  assets for depreciation.
                                                               Observed fields that were required
                                                               and or restricted for recording
                                                               assets that were subject to
                                                               depreciation.


6     Controls provide            DFAS-Columbus                DFAS-Columbus                          No relevant exceptions
      reasonable assurance that   Asset-related                Read DPAS SSAA Appendix D to           noted.
      asset acquisitions are      transactions affecting the   confirm that DPAS contained
      accurately recorded.        asset register and/or        technical controls over user access,
                                  master file are edited       authorization, data integrity, and
                                  and validated to prevent     data validation.
                                  duplication and reduce
                                  the likelihood of creating   Observed the DPAS system to
                                  erroneous property           confirm that it included editing and
                                  records to maintain the      validation functions that would not
                                  integrity of data            permit duplication of a stock
                                  recorded in the system;      number or serial number
                                  identified errors are        combination, or a duplicate



                                                               95
CO    Control Objective   Control Activity             Test Procedure                         Results of Testing
No.
                          corrected promptly.          barcode.

                          The system contains          Observed the stock number, serial
                          edits and validations that   number, and barcode fields to
                          assist the user in           confirm that the user was
                          accurately capturing the     prompted with an error message if
                          method and costs of          the user entered a duplicate value.
                          acquiring each property
                          item or bulk property        Observed that significant error
                          items including direct       messages, such as system aborts,
                          purchase, completed          were logged to an error log file and
                          work-in-process,             observed that the History Table
                          completed internal user      captured asset transactional
                          software in development,     activity.
                          capital lease, donation,
                          loan, grant, non-            Observed edits and validations
                          reciprocal transfer or       were built into the system.
                          reciprocal transfer, and     Confirmed through observation
                          the date of the              that the system prompted users
                          acquisition.                 with warning messages when values
                                                       were not entered into required
                                                       fields.

                                                       Observed the application's Hand
                                                       Receipt Module to confirm that it
                                                       provided the user the capability of
                                                       capturing the method of asset
                                                       acquisition with the assignment of



                                                       96
CO    Control Objective           Control Activity            Test Procedure                         Results of Testing
No.
                                                              the appropriate “Action Code” and
                                                              “Date of Acquisition” when
                                                              performing an “End Item
                                                              Increase.”

                                                              Observed that fields “Acquisition
                                                              Date” and “Action Code” that
                                                              allow a user to capture the method
                                                              of asset acquisition, to confirm that
                                                              the fields were required and
                                                              restricted. Through re-
                                                              performance, attempted to proceed
                                                              beyond a window that contained
                                                              Acquisition Date and Action Code
                                                              without entry to confirm that the
                                                              system prompted the user with a
                                                              warning message.
7     Controls provide            DFAS-Columbus               DFAS-Columbus                         No relevant exceptions
      reasonable assurance that   The system calculates       Read the DPAS Help Manual to          noted.
      asset disposals are         gain or loss at time of     confirm that the system calculates a
      accurately calculated and   disposal or retirement,     gain or loss at the time of disposal.
      recorded in accordance      sale, exchange, or
      with USSGL policy.          donation.                   Observed the DPAS system to
                                                              confirm that it provided a financial
                                  The system for              transaction for calculation of gain
                                  capitalized property        or loss at the time of disposal or
                                  classifies Property Plant   retirement, sale, exchange, and
                                  & Equipment according       donation.



                                                              97
CO    Control Objective   Control Activity            Test Procedure                         Results of Testing
No.
                          to the USSGL and
                          generates data for the      Observed that the transaction was
                          journal entries necessary   logged in the History Table,
                          for recording changes in    indicating transaction date, time,
                          the valuation including     and the User ID of the person
                          any associated gains or     entering the transaction.
                          losses.


                                                      Re-performed test and gain or loss
                                                      calculations similar to depreciation
                                                      re-performance tests to confirm
                                                      that a gain or loss was accurately
                                                      calculated.

                                                      Observed the system to confirm
                                                      that its configuration performed a
                                                      cross-walk to the USSGL.

                                                      Observed the application's asset
                                                      code field to confirm that it
                                                      provided the user the capability of
                                                      classifying PP&E according to the
                                                      USSGL.

                                                      Observed the asset code field to
                                                      confirm that it was a required or
                                                      restricted field. Through re-



                                                      98
CO    Control Objective           Control Activity          Test Procedure                         Results of Testing
No.
                                                             performance, attempted to proceed
                                                             beyond a window that contained
                                                             the asset code field without an
                                                             entry to confirm that the system
                                                             prompted users with a warning
                                                             message.
8     Controls provide            DFAS-Columbus              DFAS-Columbus                         No relevant exceptions
      reasonable assurance that   The system contains        Read the electronic DPAS Help         noted.
      depreciation charges are    edits and validations that Manual to confirm that the Asset
      accurately calculated and   assist the user in         Control Code (ACC) identified the
      recorded.                   aggregating like items     accounting class of assets and that
                                  into pools for purposes    DPAS had capital threshold limits.
                                  of calculating             Observed the application's Hand
                                  depreciation; allows       Receipt module and Catalog
                                  users to reassign an       module to confirm that they
                                  average useful life and    provided the user the capability to
                                  acquisition cost; and      aggregate homogeneous assets into
                                  maintains original         asset pools via the ACC code field.
                                  unique property records
                                  for pooled items.
                                                             Observed that ACC code was a
                                  The system supports an     required and restricted field.
                                  appropriate depreciation Through re-performance,
                                  method, such as straight attempted to proceed beyond a
                                  line, physical usage and   window without entering an ACC
                                  the components needed      code to confirm that the system
                                  to calculate depreciation, prompted users with warning a
                                  amortization, or           message.



                                                            99
CO    Control Objective   Control Activity            Test Procedure                          Results of Testing
No.
                          depletion expense
                          including: original asset    Read Help Manual to confirm that
                          value; estimated useful      it included an entire list of system
                          life; and salvage or         permitted ACC codes.
                          residual value.
                                                       Observed the application's Catalog
                          The system notifies the      module and Accounting module to
                          user if information is       confirm that they provided the user
                          needed for depreciation,     the capability of capturing the
                          amortization or              estimated useful life, depreciation,
                          depletion calculations       amortization, depletion method,
                          when thresholds are          and salvage or residual value for
                          exceeded.                    each asset or group of assets when
                                                       applicable and that the system
                                                       supported only the straight-line
                                                       calculation method.
                          Standard programmed
                          algorithms perform           Observed the DPAS system to
                          depreciation                 confirm that it prompted users
                          calculations.                with the warning message
                                                       “Threshold Exceeded” if value
                                                       exceeded system's configured
                                                       threshold.

                                                       Re-performed deprecation
                                                       algorithm for a haphazard sample
                                                       of transactions to confirm correct
                                                       calculation was being routinely



                                                      100
CO    Control Objective           Control Activity           Test Procedure                          Results of Testing
No.
                                                             performed.
9     Controls provide            DFAS-Columbus              DFAS-Columbus                           No relevant exceptions
      reasonable assurance that   The system contains        Observed the application's Hand         noted.
      recorded asset              edits and validations that Receipt module to confirm that it
      acquisitions represent      prevent the user from      provided the user the capability of
      assets acquired by the      entering erroneous data identifying an asset as Inbound,
      organization.               for the acquisition of     Outbound, or Not Applicable by
                                  property in-transit.       assigning the appropriate “In-
                                                             transit Code.” Observed that the
                                                             In-transit Code field restricted the
                                                             user to selecting one of the three
                                                             options and defaulted to “Not
                                                             Applicable.”


                                                             Observed the application's Catalog
                                                             and Document Register to confirm
                                                             that they provided users the
                                                             capability of tracking the In-transit
                                                             Code of an asset by storing the
                                                             asset's Contract Number. Observed
                                                             that the Contract Number field
                                                             could be pre-populated by Fed Log
                                                             or populated by user entry and that
                                                             this field was not restrictive.
                                                             Observed the fields “In-transit
                                                             Code” and “Contract Number” to
                                                             confirm that they were required or



                                                            101
CO    Control Objective            Control Activity           Test Procedure                          Results of Testing
No.
                                                               restricted. Through re-
                                                               performance, attempted to proceed
                                                               beyond a window that contained a
                                                               Contract Number without an entry
                                                               to confirm that the system
                                                               prompted users with warning
                                                               messages.


10    Controls provide             DFAS-Columbus               DFAS-Columbus                      No relevant exceptions
      reasonable assurance that    Personnel who are           Read the DPAS SSAA Appendix O, noted.
      only valid changes are       responsible for asset       “DPAS Security Awareness
      made to the asset register   transaction processing      Guide,” to confirm that the roles
      and master file.             have neither                and responsibilities were defined
                                   responsibility for asset    for the System Administrator, IAO,
                                   master file maintenance     Site Security Officer, and Users.
                                   nor update
                                                              Observed documentation that
                                   access to the asset master defined user roles and
                                   file.                      responsibilities.

                                                               Observed the application to
                                                               confirm that users must possess a
                                                               valid Login and Password to gain
                                                               access to the system.

                                                               Observed that each user account
                                                               was assigned a Security Profile that



                                                              102
CO    Control Objective            Control Activity            Test Procedure                        Results of Testing
No.
                                                                restricted access by module,
                                                                program, UIC, and Hand Receipt.

                                                                Observed documentation and
                                                                communication between the PBO
                                                                and the Information Systems
                                                                Security Officer responsible for
                                                                setting up Security Profile that
                                                                dictated which modules and
                                                                functions each user had access to.
11    Controls provide             DISA-Dayton                  DISA-Dayton                          No standard operating
      reasonable assurance that    Transactions that are        Confirmed through inquiry that       procedures existed for
      erroneous transactions       reprocessed are              erroneous transactions were          monitoring transaction
      are identified without       controlled in a similar      reprocessed in a similar manner to   processing. In addition,
      being processed and          manner to the original       the original transactions.           error correction
      without undue disruption     transactions with                                                 procedures were not
      of the processing of other   appropriate                  Read Standard Operating              documented and
      valid transactions.          modifications (for both      Procedures to confirm that           maintained. Finally, the
                                   business process and         documented procedures existed for    majority of the
                                   security controls).          monitoring transaction processing.   transaction processing,
                                   The system provides an                                            monitoring, and error
                                   audit trail of all           Observed that transactions were      correction functions were
                                   transactions processed,      reprocessed in a manner similar to   performed by one
                                   transaction errors, error    original transactions.               individual at DISA who
                                   descriptions, and error                                           was the only person who
                                   correction procedures.       Observed the batch status file to    had the full technical
                                                                confirm that erroneous               knowledge of DPAS to
                                                                transactions                         perform all of the



                                                               103
CO    Control Objective            Control Activity          Test Procedure                       Results of Testing
No.
                                                             were monitored, identified, and      functions. The
                                                             corrected.                           unavailability of this
                                                                                                  person could impact the
                                                             Observed the batch status file to    timeliness and quality of
                                                             confirm that it recorded all         system transaction file
                                                             successful and unsuccessful          processing.
                                                             batches.

                                                             Observed the Batch Error History
                                                             report and descriptions to confirm
                                                             that erroneous transactions were
                                                             monitored, identified, and
                                                             corrected and that correction
                                                             procedures were recorded.
12    Controls provide             DISA-Dayton               DISA-Dayton                          No relevant exceptions
      reasonable assurance that    Interfaced inputs are     Confirmed through inquiry that       noted.
      transaction data entered     automatically validated   interfaced inputs were
      for processing via           by the system for missing automatically validated by the
      automated interface are      information, format,      system for missing information,
      subject to a variety of      consistency and           format, consistency and
      controls to check for        reasonableness. Checks    reasonableness.
      accuracy, completeness       for valid information are Observed the application to
      and validity and that        made when inputs are      confirm that it would reject and not
      input data are validated     received. Transactions    process erroneous transactions.
      and edited as close to the   failing edit and
      point of origination as      validation routines are   Observed log files that confirm the
      possible.                    posted to a suspense file logging of successful and
                                   and reported. Where a     unsuccessful transactions between



                                                            104
CO    Control Objective   Control Activity             Test Procedure                          Results of Testing
No.
                          file contains valid and       interfaces.
                          invalid transactions,         Observed the error file to confirm
                          processing of valid           that erroneous transactions were
                          transactions is not           monitored, identified, and
                          delayed.                      corrected.

                          Interfaced inputs are         Observed system batch files of
                          transmitted in batch files    interfaced inputs for control totals
                          and batch control totals      and line counts.
                          are used to balance sent
                          transactions to received      Observed the suspense file to
                          transactions. Out-of-         confirm that erroneous
                          balance conditions are        transactions were monitored,
                          reported, corrected and       identified, and corrected.
                          reentered.
                                                        Inspected a haphazard sample of
                                                        batch transaction errors to confirm
                                                        that all 7 transaction errors were
                                                        corrected.

                                                        Observed that rerun transactions
                                                        were subjected to the same quality
                                                        review as the original transactions.




                                                       105
Section IV: Supplemental Information Provided by the Defense
                Information Systems Agency




                            107
IV. Supplemental Information Provided by the Defense
Information Systems Agency

This section has been prepared by DISA and is included to provide user organizations
with information DISA believes will be of interest to such organizations but is not
covered in the scope or control objectives established for the Statement on Auditing
Standards 70 review. Specifically included is a summary of procedures that DISA has
put into place to enable recovery from a disaster affecting the DISA location where
DPAS is housed and maintained.

This information has not been subjected to the procedures applied to the
examination of the description of controls presented in Sections II and III of this
report, and accordingly, the DoD OIG expresses no opinion regarding the
completeness and accuracy of this information.

To accommodate a major disaster at any major DISA processing center, DISA has
established the DISA Continuity and Test Facility (DCTF) at Slidell, LA. This facility is
equipped with computational, DASD (Direct Access Storage Device), and
telecommunications resources sized to provide a fully functional host site with the
capacity to support a major disaster at any DISA processing center. The Continuity of
Operations support agreement between DPAS as the customer and DISA as the provider
of processing system and communications services provides for restoring host site
processing in the event of a major disaster and the timely resolution of problems during
other disruptions that adversely affect DPAS processing.

The enterprise backup process is managed by the DISA-Oklahoma City Storage Team.
Backup tapes containing the incremental daily and the complete weekly backups are
created at Dayton with DISA-Oklahoma City oversight. The tapes are rotated off-site to
Data Storage Centers in Cincinnati, OH, for storage on a predetermined schedule.

The Crisis Management Team (CMT) at DISA-Ogden is responsible for declaring that a
disaster has occurred and to initiate the Business Continuity Plan. The CMT will then
activate the following response teams: Communications Team, Recovery Coordination
Team, Site Recovery Team, and the Crisis Support Team (CST). In the event of disaster
recovery when the DISA-Oklahoma City or DISA-Ogden sites are not available to
restore the data, the DPAS customer has to request DISA-Dayton personnel to initiate the
data restore process. Each team has a specific set of responsibilities defined in the
Business Continuity Plan. The contact information for each individual on each team is
also included in the Business Continuity Plan. The plan is required to be tested on an
annual basis. DPAS personnel and select user sites participate in the yearly Continuity of
Operations test to ensure that the process works correctly and that documentation is
updated appropriately.




                                           109
Acronyms and Abbreviations
ACC          Asset Control Code
ACL          Access Control List
ADP          Automated Data Processing
CCB          Configuration Control Board
CI           Configured Items
CMTS         Configuration Management Tracking System
DAA          Designated Approving Authority
DECC         Defense Enterprise Computing Center
DFAS         Defense Finance and Accounting Service
DISA         Defense Information Systems Agency
DISA OKC     DISA Oklahoma City
DITSCAP      Department of Defense Information Technology Security Certification and
             Accreditation Process
DoD          Department of Defense
DoD OIG      Department of Defense Office of Inspector General
DPAS         Defense Property Accountability System
FSO          Field Security Operations
GOTS         Government off-the-Shelf
HP/UX        Hewlett Packard/Unix
IA           Information Assurance
IAM          Information Assurance Manager
IAO          Information Assurance Officer
ID           Identification
IDS          Intrusion Detection System
ISS          Internet Security Systems
IT           Information Technology
MAC          Mission Assurance Category
NAVSISA      Naval Supply Information Systems Activity
NIST         National Institute of Standards and Technology
NSA          National Security Agency
PBO          Property Book Officer
PDCD         Portable Data Collection Devices
PTR          Program Trouble Report
SAAR         System Authorization Access Request
SCR          System Change Request
SMC          System Management Center
SRR          System Readiness Review
SSAA         System Security Authorization Agreement
STIG         Security Technical Implementation Guide
TASO         Terminal Area Security Officer
UIC          Unit Identification Code



                                  111
ULLS-S4   Unit Level Logistics System-Supply
USSGL     United States Government Standard General Ledger
VMS       Vulnerability Management System
VPN       Virtual Private Network




                              112
Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense, Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Commanding Officer, Naval Supply Information Systems Activity

Combatant Command
U.S. Joint Forces Command

Other Defense Organizations
Defense Finance and Accounting Service
Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accountability Office

Congressional Committees and Subcommittees, Chairman and Ranking
Minority Members
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
  House Subcommittee on National Security, Emerging Threats, and International
     Relations, Committee on Government Reform
  House Subcommittee on Technology, Information Policy, Intergovernmental
     Relations, and the Census, Committee on Government Reform




                                         113
Team Members
The Defense Financial Auditing Service, Department of Defense Office of Inspector
General produced this report.

Paul J. Granetto
Patricia A. Marsh
Addie M. Beima
Kenneth H. Stavenjord
Yolanda C. Watts
LTC Shurman Vines
Jackie J. Vos
William Zeh
Charles Dekle
Kimberly D. Brothers
Michael E. Williams
